APPENDIX
Jose Reyes, Petitioner

Appellate Court Decision

2020 IL App (2d) 170379
No. 2-17-0379
Opinion filed November 24, 2020
IN THE
APPELLATE COURT OF ILLINOIS
SECOND DISTRICT

THE PEOPLE OF THE STATE
OF ILLINOIS,

)
)

Plaintiff-Appellee,

)
)
)

)

v.

Appeal from the Circuit Court
of Lake County.

No. 13-CF-2843

)

)
)
)

JOSE E. REYES,
Defendant-Appellant.

Honorable
Mark L. Levitt,
Judge, Presiding.

JUSTICE HUDSON delivered the judgment of the court, with opinion.
Justice Zenoff concurred in the judgment and opinion.
Presiding Justice Birkett specially concurred, with opinion.
OPINION
11

12

I. INTRODUCTION
Following a bench trial, defendant, Jose E. Reyes, was convicted of aggravated

kidnapping (720 ILCS 5/10-2(a)(2) (West 2012)), predatory criminal sexual assault of a child
(id. § 11-1.40(a)(1)), and three counts of child pornography (two counts of filming or
videotaping (id. § 11-20.1(a)(1)) and one count of possession of child pornography (id. § 1120.1(a)(6)). Defendant was sentenced to four consecutive 30-year sentences on aggravated
kidnapping, predatory criminal sexual assault of a child, and the two counts of filming or
\

videotaping child pornography. He was also sentenced to a concurrent sentence of seven years
on the count of possession of child pornography. On appeal, defendant argues that the trial court
erred in denying his motion to suppress evidence obtained from his cell phone pursuant to a
search warrant. Additionally, defendant argues that we should vacate one of the two convictions

2020 ILApp (2d) 170379
of child pornography based on filming or videotaping under the one-act, one-crime doctrine. For
the following reasons, we affirm.

H3
14

n. BACKGROUND
On September 30, 2013, M.G. was three years old. Just before 5:30 p.m. that day, she

was playing in front of the apartment building in Mundelein, where she lived with her family.
M.G.’s sisters, D.G., age nine, and W.G., age five, were playing with her while their mother,
C.G., was caring for their infant brother in their second-floor apartment. M.G.’s father, A.G.,
was at work in Des Plaines. A black, four-door vehicle passed by the girls twice and then came
back a few minutes later and stopped. The driver, a man, got out of the vehicle and approached
the girls. He offered the girls lollipops. After briefly speaking to the girls, in Spanish, the man
grabbed M.G., carried her to his car, placed her inside, and drove off. C.G. heard D.G. scream.
C.G. looked out the window and saw the man carry M.G. toward the black car. C.G. ran
downstairs, but, by the time she got outside, the car had driven away.
5

The Mundelein police arrived on the scene within minutes. While they were interviewing

witnesses, the black car drove through the rear parking lot of the apartment building and dropped
M.G. off. She was crying and ran away from the car.
6

A.G. arrived home after M.G. had been reunited with her family. M.G. was sad and did

not want to speak. A.G. took M.G. and police officers up to the family’s apartment. Officers
asked M.G. questions, but she was not answering. M.G. told A.G. that she wanted to go to the
bathroom. A.G. noticed bloodstains in M.G.’s panties. M.G. told A.G. that “her parts were
hurting.” A.G. told the police what M.G. said, and the police collected the panties as evidence.
7

M.G. was taken to Condell Medical Center in Libertyville, where she was examined by a

sexual assault nurse examiner, Chenel Vanderberk-Flores. Using a rape kit, Vanderberk-Flores

-2-

2020 ILApp (2d) 170379
collected items of evidence and took photographs of M.G. M.G. was in a lot of pain when she
urinated, and she “seemed uncomfortable and overwhelmed.” Vanderberk-Flores observed a
“very atypical redness” around the opening of M.G.’s vaginal area. Vanderberk-Flores opined
that the redness around M.G.’s vaginal area was consistent with an act of penetration.
18

Dr. Patrick Dolan, a pediatric emergency room doctor and the director of the sexual

assault team at Condell Medical Center, examined M.G. He opined that the injury or redness on
M.G.’s vaginal area was consistent with an act of penetration.
19

Within two days, the Mundelein police identified defendant as a suspect in the

kidnapping and molestation of M.G. They also tied defendant’s vehicle to the abduction. On
October 3, 2013, defendant was located at his workplace in Libertyville. His vehicle was in the
parking lot. Defendant was charged by complaint with aggravated kidnapping, kidnapping, and
unlawful restraint of M.G. Defendant’s vehicle was secured, and a search warrant was issued for
defendant’s residence and his vehicle. The police located, seized, and secured three electronic
devices from defendant’s vehicle: a Huawei cell phone, a Garmin Nuvi 1350 global positioning
system (GPS) unit, and a black 120 GB media player. On October 8, 2013, a search warrant was
issued authorizing the search of the electronic devices.
! 10

Carol Gudbrandsen, a cybercrimes forensic analyst with the Lake County State’s

Attorney’s office, conducted the search of defendant’s cell phone. She found images of M.G. in
two videos. One showed M.G. riding in defendant’s vehicle, and the other showed M.G. naked
from the waist down while sitting on defendant’s lap with his penis in contact with her vagina. In
the video, defendant can be heard speaking to M.G. in Spanish and M.G. can be heard crying out
“ow, ow, ow.” Stills were taken from the video showing an image of M.G.’s vagina and another

-3-

2020 EL App (2d) 170379
showing defendant’s penis in contact with M.G.’s vagina. The images recorded on the video
formed the evidentiary basis for defendant’s child pornography charges.
111
^ 12

A. The Complaint for a Search Warrant
Detective Marc Hergott of the Mundelein Police Department was the affiant in the seven-

page complaint for a search warrant (complaint) to search the electronic devices recovered from
defendant’s vehicle. In the complaint, Hergott requested the authority to search the devices for
evidence of the offenses of predatory criminal sexual assault of a child, aggravated criminal
sexual assault of a child, aggravated kidnapping, and unlawful restraint. The child-pornography
charges are not mentioned in the complaint. Hergott averred that he believed that the devices
were “used in the commission of or constitute evidence of’ the listed offenses. Hergott stated
that he had been employed as a police officer for 23 years. He stated that he had “received
ongoing training in the area of child sexual abuse/assault/exploitation, and training in computer
crimes involving children.” He explained that “cellular phones and cellular phone technology”
have revolutionized the way digital photographs are “viewed, produced, distributed, stored, and
utilized.” Hergott discussed in detail how evidence that has been deleted from a cell phone’s
memory can be recovered and viewed “months or even years later.” Hergott said that a cell
phone is an “ideal repository” for this type of evidence and can store “dozens of images and
text.”

113

Next, Hergott discussed how computers and computer technology “have revolutionized

the way in which child pornography is viewed, produced, and utilized.” Hergott explained the
ease with which child pornography can now be produced and distributed using technology as
compared to the past, when production required facilities and a dark room and distribution was
through “personal contact, mailings, and telephone calls.” Hergott explained that individuals

-4-

2020IL App (2d) 170379
who “collect and trade child pornography via computer” store the images electronically and
often keep them “for long periods of time, so the individual can view these images at his
discretion.” Hergott stated that the “data search protocols” would “protect the integrity” of any
evidence and would allow for recovery of “hidden, erased, compressed, password-protected, or
encrypted” evidence.
114

Hergott next described how devices with GPS capability can be searched to discover the

movements or route of the user. Defendant concedes on appeal that the complaint established
probable cause to search the GPS data stored in the devices recovered from his vehicle.
H 15

Hergott described the evidence gathered during the investigation. He described the

interview with C.G., who witnessed a man carry M.G. to his car. Hergott recounted the police
interview with D.G., where she described the encounter with the suspect and how he offered her
lollipops and spoke in Spanish to M.G. before kidnapping her. Hergott included D.G.’s detailed
description of the suspect. D.G. remembered that there was a “7” on the license plate and stated
that “it was the first number.” D.G. had never seen the man before, and she worked with a
forensic artist to prepare a composite sketch of the suspect.
*| 16

Hergott described information provided by Gina Johnson, a witness who lived in a

neighboring building. Johnson witnessed the abduction, and her description of the suspect was
consistent with D.G.’s description.
117

Hergott stated that, about 20 minutes after the police arrived at the apartment building,

there was a 911 call about a little girl in the building’s parking lot, screaming for her mother.
The girl was M.G.
118

Hergott stated that video footage was obtained from security cameras at the front and rear

of the apartment building. M.G.’s abduction was captured on the video. Video from the rear of

-5-

2020 ILApp (2d) 170379
the building shows a car matching the witnesses’ description dropping M.G. off. M.G. is seen
getting out of the passenger side of the vehicle and running away.
If 19

Hergott also described the interview with A.G. M.G. told A.G. that her genital area hurt.

Hergott stated that M.G. was taken to Condell Medical Center and that blood was found in her
underwear and redness around her vagina.
If 20

The vehicle used by the suspect was determined to be a 2006 to 2008 Hyundai Accent

GLS with custom chrome wheels. Mundelein police obtained from the Secretary of State a list of
all vehicles registered in Lake County that matched, and they compared that information to
tickets that had been issued by the Mundelein Police Department. This process led the police to
the registered owner, defendant, whose physical characteristics matched the description given by
witnesses. Defendant’s driver’s license photo was similar to the composite sketch prepared by
D.G. and the forensic artist.
Tf 21

Hergott described the police interview with defendant on October 2, 2013. Defendant

was shown a photo of the suspect’s vehicle taken from the video surveillance outside the
apartment building where M.G. was abducted, and he admitted that it was his vehicle. Defendant
said, “no one else had possessed the vehicle and [he] drove it that night.” Defendant’s vehicle
had a “7” on its license plate, and there appeared to be a bottle of lotion in plain view in the back
seat. Defendant said that he went to work the night of the incident and then went directly home.
He said that he worked from 6 p.m. on September 30, 2013, until 5 a.m. on October 1. Work
records from defendant’s employer showed that defendant was seven minutes late on September
30.

If 22

Hergott stated that, based upon all the information provided in the complaint, he believed

that evidence of the offense of predatory criminal sexual assault of a child, aggravated criminal

-6-

2020 ILApp (2d) 170379
sexual abuse, aggravated kidnapping and unlawful restraint was located on the electronic devices
described in the complaint.
U 23

Hergott presented the complaint to Judge Collins, who issued the warrant, finding that

the complaint set forth facts sufficient to show probable cause to search the devices and
“seize and analyze: any and all records of incoming and outgoing phone calls, any video
recordings, memory/speed dial-redial features, contacts, voicemail features, images and
metadata, videos, address book, text messages, any passwords, maps, GPS locations,
computer and cell phone applications, documents, emails, internet activity and searches,
and all items which have been used in die commission of or which constitute evidence of
the offenses of predatory criminal sexual assault of a child in violation Illinois Compiled
Statute 720 ILCS 5/ll-1.40(a)(l), aggravated kidnapping in violation of Illinois
Compiled Statute 720 ILCS 5/11-1.60, aggravated kidnapping in violation of Illinois
Compiled Statute 720 ILCS 5/10-2(a)(2), kidnapping in violation of 720 ILCS 5/101(a)(1), and unlawful restraint in violation of Illinois Compiled Statute 720 ILCS 5/103.”

The warrant did not distinguish among the devices or exclude any file locations to be searched.
B. Defendant’s Motion to Suppress Evidence

124
1} 25

Defendant argued that Judge Collins erred in finding probable cause to search his cell

phone. Citing People v. Beck, 306 HI. App. 3d 172, 178 (1999), defendant noted that a probable
cause determination requires a sufficient nexus between the criminal offense, the items to be
seized, and the place to be searched. He argued that there was no nexus between the crime and
the cell phone.

-7-

2020 ILApp (2d) 170379
Tf 26

The State argued in its response to defendant’s motion to suppress that, given the location

of the phone when it was found, together with the “locus of the criminal activity, it is reasonable
to believe that the phone would contain some evidence (photos, videos, GPS information) of
criminal activity.” The State argued that the facts set forth in the complaint, together with
“reasonable and common-sense inferences,” satisfied the nexus requirement.
27

No evidence was presented during the hearing on the motion to suppress. The court

considered the search warrant, the complaint, the written pleadings, and the arguments of
counsel. During arguments on the motion, defense counsel argued that “[n]ot a single witness
states that a cell phone was used in the commission of the offense. Not a single witness or piece
of police information indicate that there were accomplices, for example.” Counsel argued that,
without evidence of accomplices, the search of phone logs and text messages should not be
allowed. Concerning the GPS data, counsel argued that it was not relevant, because the “crime
happened near this parking lot.” Counsel argued that most important were the video files.
Counsel stated, “[s]o maybe the magistrate should have signed a search warrant that would allow
for the search for GPS data, but definitely not for video files, definitely not for text messages,
definitely not for phone Calls, because there is nothing in the complaint that says or even
. i

suggests phone calls would [sic] be made.”
28

Defense counsel argued that the information in the complaint was the result of “cut and

paste.” He argued that “child pornography and how, in a digital age, child pomographers use
phones to look at videos again has nothing to do with this case because there is no evidence
whatsoever that they [sic] would be relevant, discoverable, or any type of video file in the cell
phone.” Defense counsel noted the deferential standard accorded to the issuing judge but further

-8-

2020IL App (2d) 170379
noted that, even under the “common sense approach, there is zero reason to even open that video
file.”
^ 29

The State argued that missing from defendant’s argument were all the relevant facts

Hergott laid out in the complaint, “not just that he believes there might be evidence on the cell
phone.” The State argued that the facts and the reasonable inferences established the nexus. The
State pointed out that defendant’s car was gone for a short period of time, there was an “injury
with blood,” “some sexual assault had taken place,” and the car appeared to be the locus of the
crime. The State made an analogy to the time before digital cameras, pointing out that if there
had been a murder or a sexual assault in a room and someone found a camera with film in it, it
would not be unreasonable to apply for a search warrant. “That is exactly what the police did in
this case—they found a camera and what they believe to be a crime scene, what eyewitnesses
said was a crime, and they asked for a search wanrant and they obtained one.” The State also
stressed that there were no allegations that Hergott made any misrepresentations to Judge
Collins. The State argued that Hergott’s training and experience regarding the behavior of
“people who take pictures of children or offend against children [and] have those images and
save digital media to preserve the experience” was presented to Judge Collins.
130

The State asserted that Hergott’s affidavit demonstrated “that the offender had a plan. He

offered lollipop candy to the girls.” Thus, it was “not unreasonable to think he had a plan for
preserving that act or retaining evidence of that act after the crime, as well,” and that he “would
use that phone.” The State argued that the cell phone had a camera that was found at the crime
scene, which “is the most direct nexus that is alleged.” It observed that Judge Collins had the
opportunity to explore the facts with Hergott as he saw fit. The State noted that cell phones are a
common part of life, that it is “very common for people to pull out their cell phone and take a

-9-

2020IL App (2d) 170379
picture of what is going on,” and that it is not unreasonable to think that defendant would do so
“under these circumstances.” The State reiterated that the facts contained in the complaint—the
short period of time that M.G. was with defendant, the blood, the candy, and the lotion in the
car—suggested that a crime had taken place. Also found in the car was a cell phone “that records
experiences.”
131

During rebuttal argument, defense counsel argued that the cell phone was not found on

the day of the crime. Counsel argued that most people keep their cell phones on the seat in their
vehicle and that, just because the cell phone was found “doesn’t mean that there was a
photographic experience taken.” Counsel stated, “I think it’s highly unusual for somebody to
take [jic] an assault.” He asserted that it would be “actually incredibly rare” for someone to tape
an assault. Counsel acknowledged that the affidavit discussed child pornography, but he pointed
out that it does not state how common it is for people to tape assaults. Defense counsel stated
that he did not see the connection, even though taping an assault is, “I guess, technically, ***
child pornography.” Counsel acknowledged that Judge Collins “could have asked questions, but
if the State has a faulty affidavit, they have to bring in the detective to say, ‘well, actually,
Collins asked this question.’ ” Counsel asserted that the affidavit was merely “a description of a
sexual assault, and *** a description of how cell phones are used in child pornography. I think
you will see there is not a critical nexus, between looking at why somebody videotapes an
attack.”
K 32

Defense counsel argued that, even if there was probable cause to search the phone for

GPS data, “that doesn’t get you into the video compartment.” The trial court asked defense
counsel if he had any cases to support his “compartmentalization” argument. Counsel cited
People v. Moser, 356 Dl. App. 3d 900 (2005), a case that involved a search of a house for
V,

-10-

' S

2020IL App (2d) 170379
controlled substances. The trial court asked defense counsel if he had any authority involving
cell phones, and counsel said he did not and would “have to spend more time.”
133

The State noted that the exclusionary rule “is there to prevent police misconduct. In this

case, the police sought and obtained a warrant.” The State also said that the police could have
“specified the scope” if they did not believe that there was probable cause to search “the entire
phone.”
U 34

The trial court offered defense counsel the opportunity to argue “or advance any other

cases if you know of any.” The court said that it had considered the “four comers” of the
complaint, the arguments of the attorneys, and its own experience. The court likewise made clear
that it had carefully considered defense counsel’s nexus argument. It noted that there was no
suggestion that there was insufficient evidence that a crime had been committed or that there
were any false representations in the affidavit. The court found that “the assertions were
supported by the affidavit,” and it denied the motion to suppress the evidence. Although offered
the opportunity to do so, defense counsel did not file a motion to reconsider or offer additional
authority regarding his nexus argument.
135
Tf 36

G. The Trial
Prior to dial, the State disclosed that defendant had been identified by DNA lab results as

the perpetrator of a sexual assault of a minor on August 24, 2012, in Du Page County. The State
agreed to defendant’s motion in limine to exclude evidence related to the Du Page County case.
37

During the first day of jury selection, defendant waived his right to a jury trial and

proceeded to a bench trial. Defense counsel explained that the decision to waive a jury trial was
due to the trial court’s ruling on the motion to suppress.

-11-

2020 ILApp (2d) 170379
If 38

At trial, the State introduced the evidence outlined in Hergott’s affidavit. The State also

offered the video and still photographs taken from defendant's cell phone showing the image of
defendant's penis in contact with M.G.'s vagina and the image of M.G.’s vagina.
1f39

A.G. testified that, after he arrived at the apartment building, he took M.G. up to the

family’s apartment, along with the police officers. The officers attempted to interview M.G., but
she would not answer any questions. M.G. wanted to go to the bathroom to “do a pee-pee.”
While helping M.G. go to the bathroom, A.G. saw bloodstains on M.G.’s panties. M.G. told
A.G. that her “parts were hurting.” The police collected the panties as evidence.
1f 40

Sperm cells recovered from the shorts M.G. was wearing matched defendant’s DNA, and

male DNA was on the vaginal swab from M.G.’s rape kit A lollipop was recovered at the scene
of the abduction, and it matched the lollipops recovered from defendant’s vehicle.
f 41

D.G. testified to the facts outlined in Hergott’s affidavit. D.G. identified the composite

sketch along with a photo lineup where she identified defendant’s photo. She identified
defendant in open court.
If 42

The trial court denied defendant’s motion for a directed verdict. Defendant presented

stipulations and exhibits regarding lineup procedures along with a written statement to impeach
one of the State’s identification witnesses.
If 43

The trial court found defendant guilty of all counts. Defendant’s motion for a new trial

argued that the trial court erred in denying his motion to suppress evidence. Defense counsel
argued at the hearing on the motion that, “while GPS data may have been relevant, there was no
reason to go into the video files.” The motion was denied. Following sentencing and defendant’s
motion to reconsider the sentence, defendant timely appealed.

1144

m. ANALYSIS

-12-

2020 ILApp (2d) 170379
f 45

Defendant appeals his child pornography convictions. First, he contends that the videos

taken from the cell phone should have been suppressed because the search warrant was not
supported by probable cause and the police did not act in good faith. Second, he argues that one
of his convictions must be vacated pursuant to the one-act, one-crime rule. We disagree with
both contentions.

146

A. Search Warrant

147

1. Probable Cause

Tf 48

With numerous exceptions, the fourth amendment to the United States Constitution (U.S.

Const., amend. IV) requires the State to obtain a search warrant prior to conducting a search.
People v. Lampitok, 207 Ill. 2d 231, 243 (2003). Generally, probable cause “is required for
issuance of a search warrant.” People v. Rojas, 2013 IL App (1st) 113780, *j 15. “Probable
cause” means that the facts available to the individual seeking the warrant are “sufficient to
warrant a person of reasonable caution to believe that the law was violated and evidence of it is
on the premises to be searched.” People v. Griffin, 178 Ill. 2d 65, 77 (1997). It is assessed with
reference to “the totality of facts and circumstances known to an affiant applying for a warrant at
the time the warrant is sought.” People v. McCarty, 223 Dl. 2d 109, 153 (2006).
^[49

We will disturb a trial court’s decision regarding a motion to suppress only if it is

manifestly erroneous. People v. Redmond, 114 Ill. App. 3d 407, 417 (1983). Our review requires
us to consider whether the judge issuing the search warrant had a substantial basis for concluding
that probable cause existed. People v. Brown, 2014 IL App (2d) 121167,123. Therefore, “if the
complaint provided a substantial basis for the issuing judge’s probable-cause determination, we
will affirm the trial court’s denial of a defendant’s motion to quash and suppress.” Id. Moreover,
we may affirm on any basis appearing in the record. People v. Mujica, 2016 IL App (2d)

-13-

2020 ILApp (2d) 170379
140435,

13. Finally, a sworn complaint seeking a search warrant is presumed true. McCarty,

223 Ill. 2d at 154. As defendant here does not attempt to controvert the facts set forth in the
complaint, we will accept them as true. Sst People v. Manzo, 2018IL 122761, ^ 32.
K 50

Defendant argues that the trial court committed reversible error by denying his motion to

suppress the child pornography videos discovered on the phone. He contends that the warrant to
search the phone was not supported by probable cause, because Hergott’s complaint did not
establish a nexus between the videos and the charged offenses. He claims that “not one person
ever witnessed the defendant carrying a [cell] phone on the day of the offense, much less him
recording an illicit act.”
151

However, the complaint made clear that the phone could be a source of photographs,

video, voice recordings, and text communications. Such data, actively created by the user,
theoretically could include recordings 'of the offenses. Defendant essentially argues that there is
no nexus between the offenses and the phone because the complaint did not allege that he
actively created data during the offenses; that is, the warrant was not supported by probable
cause because Hergott failed to allege some basis to conclude that defendant “used” the phone
while committing the offenses.
K 52

Contrary to defendant’s assertion, suppression is not required simply because the

complaint did not allege that defendant actively created data in furtherance of the offenses. The
complaint broadly sought data “which constitute^] evidence of the offenses,” which is
consistent with the test for probable cause. Griffin, 178 Ill; 2d at 77. Probable cause to issue the
warrant existed because there was a fair probability that evidence of the offenses would be found
on the phone. People v. Hickey, 178 Ill. 2d 256, 285 (1997). The variety of functions that a cell
phone can perform illustrates why. Cell phone evidence of an offense includes not only the

-14-

r

2020IL App (2d) 170379
photographs, audio, or video of the offenses being committed but also GPS data that might
indicate where the crime occurred or indicia of the identity of the perpetrator.
H 53

Here, the complaint’s descriptions of GPS technology and the abduction were sufficient

to warrant a person of reasonable caution to believe that the phone’s contents would identify
defendant as the offender and reveal where the offenses were committed. The complaint
generally identified “maps, GPS locations,

[and] cell phone applications” as containing

evidence of the offenses. The complaint included a detailed explanation of how a user can
activate GPS to trace the path of the device. Moreover, it is common knowledge that a phone
like the one in this case also passively generates, collects, and processes tracking data on its own,
without the user’s input. Cell-tower transmissions maintain the phone’s connection to the
network, and GPS software calculates the phone’s location.
% 54

The complaint was presented in unlabeled sections addressing the phone, the Garmin

unit, and the media player. Admittedly, the section of the complaint addressing the phone
focused on data storage relative to child pornography, not on maps or GPS. However, the
complaint broadly stated that “[c]omplainants have probable cause to believe *** that the above
listed things to be seized[, including GPS data,] are now located upon the property set forth
above[, including the phone].” Under our deferential standard of review, we may attribute the
GPS section of the complaint to the phone. People v. Bums, 2016 IL 118973, ^ 15 (a circuit
court’s finding of fact is given deference when ruling on a motion to suppress and will be
reversed only when those findings of fact are against the manifest weight of the evidence);
People v. Stewart, 104 Ill. 2d 463, 477 (1984) (in determining whether an affidavit demonstrates
the existence of probable cause, the resolution of a doubtful or marginal case should largely be
determined by the preference to be accorded to the warrant). A commonsense interpretation of

-15-

2020 ILApp (2d) 170379
the complaint is that the phone and the Garmin unit were each capable of performing GPS
functions. See Riley v. California, 573 U.S. 373, 399 (2014) (“Even an individual pulled over for
something as basic as speeding might well have locational data dispositive of guilt on his
phone.’*). Thus, one cannot reconcile defendant’s concession that there was probable cause to
search the Garmin unit with his argument that there was not the same nexus between the
offenses and the phone.
]f 55

Defendant’s reliance on Manzo, 2018 IL 122761, is misplaced. In that case, the supreme

court determined that the complaint for a warrant was “bare bones” because it failed to establish
a nexus between the target of the search (the defendant’s home) and the items sought to be
recovered (certain drugs and other indicia of drug trafficking). Id. f 69. As a conclusory
statement alleging probable cause is not sufficient, a court of review will not defer to a warrant
based on a bare-bones affidavit. Rojas, 2013 IL App (1st) 113780, % 16. An affidavit is “barebones” where it is completely lacking in setting forth a basis for probable cause. Id. f 22; see
also People v. Reed, 202 HI. App. 3d 760, 764 (1998) (holding affidavit was “bare-bones” where
“none of the defendants in question were named of otherwise described or identified in the
affidavit”). A bare-bones affidavit is « < one that states only “suspicions, beliefs, or conclusions,
without providing some underlying factual circumstances regarding veracity, reliability, and
basis of knowledge.

99 9 99

Manzo, 2018 IL 122761, f 67 (quoting United States v. White,F.3d

490, 496 (6th Cir. 2017), quoting United States v. Laughton, 409 F.3d 744, 748 (6th Cir. 2005)).
Conversely, if an affidavit presents “at least an arguable showing of probable cause,” it is not
bare bones. Beck, 306 Ill. App. 3d at 181.
If 56

The complaint in Manzo averred that a police officer had purchased cocaine from a seller

three times. Manzo, 2018 IL 122761, ^f 5. On one occasion, the seller arrived at the point of sale

-16«r*

»*

2020IL App (2d) 170379
driving a vehicle registered to the residence to be searched. Id.

6. Law enforcement records

showed that the seller was an associate of the vehicle’s owner. Id. f 9. On a subsequent occasion,
the seller was observed leaving the residence shortly before the sale. Additionally, two of the
three transactions occurred near the residence. Id.

7-8. Based on these allegations, a warrant to

search the residence was issued, and incriminating evidence was seized. Id. ^ 10.
157

In holding that the complaint failed to establish a sufficient nexus between the criminal

activities and the defendant’s home, the supreme court expressly concluded that probable cause
was not established by the seller driving a vehicle registered to an occupant of the residence. Id.
139. The court commented that “[t]he fact that an alleged drug dealer drives another individual’s
car to one drug deal does not create an inference that the vehicle’s owner has contraband in his
or her home and does not justify a search of the vehicle owner’s home. To hold otherwise could
expose virtually any innocent third party to a search of the home.” Id. 41 ..
158

In Manzo, observations of a drug dealer driving a car registered to a residence and drug

sales near that residence did not establish a nexus between the drugs and the residence. In
contrast, the nexus between the phone and the offenses in this case is clear: the GPS data
passively collected by the phone during the offenses Would yield evidence of the offender’s
identity. When the warrant was issued, die police had not yet identified defendant as the person
who sexually assaulted the victim. The phone’s geolocation records would allow law
enforcement to trace defendant’s path, corroborating other evidence or producing investigative
leads, such as additional witnesses or surveillance video. The phone’s mere presence in a car that
was seen driving away with the victim would be “sufficient to warrant a person of reasonable
caution to believe that the law was violated and evidence of it is on the premises to be searched.”
Griffin, 178 Ill. 2d at 77.

-17-

2020 ILApp (2d) 170379
59

Defendant argues that it is unreasonable to infer that the phone was present during the

offenses, because two days elapsed before it was found in his car. He claims:
“Presumably, in those two days, the defendant would have slept. He would have eaten
various meals. He would have spent one day at work. He would have driven throughout
town, [a]nd to accomplish those everyday needs, he would have carried his phone with
him.”
Defendant’s argument proves too much. He effectively concedes that he carried around his
phone from the time of the offenses until his arrest. His concession cements his connection to the
phone. The discovery of the phone in his car also supports the inference that it was there during
the offenses. Hence, Judge Collins reasonably could infer that the phone contained evidence of
the offenses, because (1) it was recovered from defendant’s car or, alternatively, (2) defendant
carried it on his person and he was at the crime scene.
U 60

Defendant also concedes that, “had the officers discovered the defendant’s phone in the

car’s back seat immediately following the offense, one could infer that evidence of a criminal
offense might be found on the phone.” Here, although the phone was not recovered until two
days after the offenses, the complaint alleged facts from which Judge Collins could infer the
phone’s presence at the crime scene, either in the car or on defendant’s person. A magistrate may
draw reasonable inferences from the evidence set forth in a complaint for a search warrant.
Manzo, 2018 IL 122761, K 36.
161

Accordingly, we conclude that the record supports a reasonable inference that the phone

was in the car during the commission of the offenses. Thus, we hold that the warrant was
supported by probable cause to search the phone for GPS tracking data.

-18-

2020 ILApp (2d) 170379
62

Defendant argues that, even if a search of the GPS data was supported by probable cause,

the warrant was overbroad because it allowed a search of file locations containing video. The
warrant clause of the fourth amendment categorically prohibits the issuance of any warrant
except one “particularly describing the place to be searched and the persons or things to be
seized.” The particularity requirement is of heightened significance regarding computers, given
the vast amount of information they are capable of storing. United States v. Galpin, 720 F.3d
436, 446 (2d Cir. 2013). The manifest purpose of the particularity requirement is to prevent
general searches. By limiting the authorization to search to the specific areas and things for
which there is probable cause to search, the requirement ensures that the search will be carefully
tailored to its justifications and will not take on the character of the wide-ranging exploratory
searches the framers intended to prohibit.
“Thus, the scope of a lawful search is ‘defined by the object of the search and the places
in which there is probable cause to believe that it may be found. Just as probable cause to
believe that a stolen lawnmower may be found in a garage will not support a warrant to
search an upstairs bedroom, probable cause to believe that undocumented aliens are
being transported in a van will not justify a warrantless search of a suitcase.* ” Maryland
v. Garrison, 480 U.S. 79, 84 (1987) (quoting United States v. Ross, 456 U.S. 798, 824
(1982)).
63

At the hearing on the suppression motion, defense counsel argued that “maybe the

magistrate should have signed a search warrant that would allow for the search for GPS data, but
definitely not for video files, definitely not for text messages, definitely not for phone calls
because there is nothing in the complaint that says or even suggests phone calls would be made.”
Defendant renews the argument in his reply brief, proposing that, “even if the affiant had only

-19-

2020 ILApp (2d) 170379
sought permission to gather GPS coordinates from the defendant’s phone, any subsequent
collection of videos and photos would have been outside the scope of that warrant.” He contends
that “[s]eeking GPS coordinates cannot serve as a basis to search all throughout a phone’s data.”
While we agree that probable cause to look for GPS data would not necessarily support a search
of all of a cell phone’s data {cf., People v. Printing, 389 Ill. App. 3d 923, 937 (2009) (holding
that police exceeded the scope of their authorization to search the defendant’s computer where
the defendant consented to a search for viruses and the police searched for images)), we also do
not believe that such a search must be strictly limited to GPS files. Courts across the country
have addressed similar issues. We initially note that federal court decisions, like those of our
sister states, are not binding. They may be persuasive authority and may be followed if the court
believes that the analysis is reasonable and logical. Werderman v. Liberty Ventures, LLC, 368 HI.
App. 3d 78, 84 (2006).
64

In United States v. Burgess, 576 F.3d 1078 (10th Cir. 2009), the Tenth Circuit Court of

Appeals considered whether the discovery of child pornography during the search of a computer
hard drive authorized by a warrant allowing a search for evidence of drug trafficking exceeded
the scope of the warrant. The images of child pornography were discovered while an officer was
examining preview files looking for images of drug trafficking. Id. at 1084. The officer noted an
image that depicted “child sexual exploitation.” Id. He immediately closed the file and sought a
second warrant authorizing him to search for evidence of child sexual exploitation. Id.
Additional images were then discovered.1 Id.
To the extent that images could be discovered in “plain view” during a search for data covered by the warrant,
we do not believe that an additional warrant authorizing a further search would be necessary. See United States v. Karrer,
460 F. App’x 157,164 (3d Cir. 2012) (“In this case, the warrant authorized [the police officer] to access [the defendant’s]
cellular phone to search for evidence of unlawful communications with minors, and he did not violate the Fourth
-20-

r&

2020IL App (2d) 170379

65

The Burgess court first determined that the warrant authorizing a search of “computer

records” was not overbroad, because it was limited to such records that would reveal evidence of
drug trafficking. Id. at 1091-92. The court then turned to the scope of the search. It noted that
U l

a computer search may be as extensive as reasonably required to locate the items described in

the warrant.

Id. at 1092 (quoting United States v. Grimmett, 439 F.3d 1263, 1270 (10th Cir.

2006)). Moreover, there is no requirement that a warrant direct “ ‘a particularized computer
search strategy.’ ” Id. (quoting United States v. Brooks, 427 F.3d 1246, 1251 (10th Cir. 2005)). It
was sufficient, the Burgess court concluded, that “the scope of this search was explicitly
restrained by content”—that is, the search was limited to evidence of drug trafficking. Id. at
1093. In other words, the fourth amendment is not offended when an officer searches for the
intended object of a warrant in a place that the object is reasonably likely to be found. See
People v. Economy, 259 Ill. App. 3d 504, 512 (1994) (“In looking for items named in a search
warrant, the officers are free to search anywhere the object of the search could reasonably be
expected to be found."). Thus, in the context of computer files, this means that an officer may
look for data in files where such data is reasonably stored.
166

Additional guidance for the resolution of this appeal can be found in United States v.

Stabile, 633 F.3d 219 (3rd Cir. 2011). In that case, a police officer searched a hard drive pursuant
to a warrant authorizing him to look for evidence of financial crimes. Id. at 236. In the course of
AiripnHmpnt in arriving in the phone’s photos folder. [Citation.] We reach this conclusion because we find no clear error
in the District Court’s implicit factual finding that cell phones often archive communications as image files, which may
be saved in photos folders. Once [the officer] had entered the photos folder, it was readily apparent that one image likely
depicted a sexual offense against a child, and thus constituted child pornography, based on the sizes and characteristics
ofthe hand and genitalia in the photo. The image located on [the defendant’s] cell phone was therefore admissible under
the ‘plain view’ exception, and the subsequently discovered evidence of child pornography did not require
suppression.”).
-21-

2020 ILApp (2d) 170379
the search, he opened a folder labeled “Kazvid.” “The folder contained files bearing names
indicative of child pornography.” Id. The officers opened the files and determined that they did,
in fact, contain such material. Id.
Tf 67

The Stabile court first considered whether the officer could open the “Kazvid” folder

pursuant to the warrant authorizing him to look for evidence of financial crimes. The officer
testified that this folder could have contained financial information. Id. at 240. The court held
that it was objectively reasonable for the officer to view the contents of the folder, “because
criminals can easily alter file names and file extensions to conceal contraband.” 7# at 239. It also
noted the methodical manner in which the officer proceeded with the search, focusing on
particular areas of the hard drive rather than generally examining its entire contents. Id.
68

The Stabile court next determined that the plain-view doctrine applied to the officer’s

observation of the contents of the “Kazvid” folder. It held that, because, as explained above, the
officer was authorized by the warrant to open the “Kazvid” folder, he had “lawfully arrived at
the point from which the evidence could be viewed.” (Internal quotation marks omitted.) Id. at
242. Further, the incriminating nature of the evidence—the file names suggesting child
pornography—was immediately apparent. Id. Finally, the warrant gave him a “lawful right of
access.” Id.
^ 69

However, the Stabile court then noted that the trial court had found that the officer

exceeded the scope of the warrant by actually opening the files with the lurid names. Id. It
declined to address this issue, as it found that the independent-source and inevitable-discovery
doctrines would apply and suppression would not be warranted. Id. This final issue does not
arise in the present case because, as we will explain below, what was observed in plain view
were actual images of the victim.

-22’■'1

2020IL App (2d) 170379
K 70

In United States v. Dewald, 361 F. Supp. 3d 413, 415 (M.D. Pa. 2019), the defendant was

charged with sexual offenses directed against a minor. When he was arrested, the police seized a
cell phone, and they also obtained a computer belonging to the defendant. Id. at 415-16. They
secured warrants allowing them to look for communication between the defendant and the minor
on the two devices. During the search of the cell phone, they discovered communications
between the defendant and two additional minors. Id. at 416. The defendant argued that the
communications with the additional minors were outside the scope of the warrant. Id. at 419.
The court rejected this argument because, assuming that the warrant authorized the police io
search only for communication between the defendant and the first minor, it nevertheless
authorized them to search through the cell phone’s messaging applications. Id. at 420. While
doing so, the “lurid communications” between the defendant and the additional minors were in
plain view. Id.; see also Frasier v. State, 794 N.E.2d 449,463 (Ind. Ct. App. 2003) (“[The police
officer] believed he was authorized to access the data on [the defendant’s] computer to search for
marijuana records and happened across images believed to be child pornography/'),
f 71

We also note the relevance of People v. Clendenin, 238 Ill. 2d 302 (2010). In that case, a

private citizen examined a compact disc containing computer files owned by the defendant. The
private citizen viewed the titles of the files and watched a video clip. In the video clip, a minor
girl engaged in sexual activity with an adult male. Some of the files had titles suggestive of child
pornography. She turned the disc over to the police. Id. at 305-06. No issue existed regarding the
initial search, as it was conducted by a private citizen. Id. at 330. The defendant argued that the
police exceeded the scope of the initial, private search by not limiting their search to the same
areas of the disc searched by the private citizen. Id. The supreme court rejected the defendant’s
claim. Id. It first observed that the private citizen’s “own search was of sufficient scope to allow

-23-

2020 ILApp (2d) 170379
police to perform a general review of the files on the disc for the presence of child
pornography.” Id. It then expressly noted, “Defendant has pointed to nothing in support of the
claim that [the police] searched anywhere on the disc that by its file name likely would not
contain child pornography.” Id.
72

In this case, as we explain above, probable cause existed to search defendant’s cell phone

for GPS data. The question then becomes whether that allowed the police to access defendant’s
video files. Relevant here is the testimony of Gudbrandsen, the cyber-crimes forensic analyst
who searched defendant’s cell phone. Pursuant to the warrant, Gudbrandsen was authorized to,
inter alia, look at areas of the cell phone that could contain GPS data. Gudbrandsen testified that,
regarding video files, “sometimes there’s maps or video or locations, in accordance with the
GPS.” Also, the complaint implicitly characterized video files as potential sources of GPS data.
The complaint explained that a GPS device “allowfs] users, for example, to view their tracks,
project their tracks on satellite images or other maps, annotate maps, and tag photographs with
the geolocation.” Thus, the record indicates that video files were a place where it would be
reasonable to look for GPS data and thus authorized by the warrant See Burgess, 576-F.3d at
1092. As she examined the video files, Gudbrandsen, who was aware of the details of the
investigation, noted “[i]mages of a little three-year-old girl and [the] date fit the time and date of
the events that [she] was informed of by the investigation.” In other words, being in a virtual
place in which she was entitled to be in accordance with the warrant, Gudbrandsen observed
these photographs in plain view. See Stabile, 633 F.3d at 242. Given her knowledge of the case,
their incriminating nature was immediately apparent. See People v. Lee, 2018 IL App (3d)
160100, Tf -16 (holding that the “immediately apparent” criterion is satisfied if there is probable
cause to believe that the item in plain view is incriminating).

-24-

2020IL App (2d) 170379
f 73

Parenthetically, we do not find it particularly significant that Gudbrandsen’s testimony

that video files could contain GPS data was not included in the complaint or presented to Judge
Collins. As noted in Burgess, 576 F.3d at 1093, it is permissible for a warrant’s scope to be
governed by the nature of the items to be searched for—here GPS data—without precise
specification of file names or locations. The Burgess court aptly observed, “It is unrealistic to
expect a warrant to prospectively restrict the scope of a search by directory, filename or
extension or to attempt to structure search methods—that process must remain dynamic.” Id.
Similarly, in Stabile, 633 F.3d at 240, the court credited the testimony of the officer performing
the search that the folder in question was of a sort that could contain evidence of financial
crimes, which the warrant was directed toward. Here, the warrant was sufficiently particular in
authorizing a search for GPS data; thus, it was not necessary for the warrant to specify each
individual file that was subject to search. Cf. United States v. Young, 745 F.2d 733, 759 (2d Cir.
1984) (“Courts tend to tolerate a greater degree of ambiguity [in a warrant] where law
enforcement agents have done the best that could. reasonably be expected under the
circumstances, have acquired all the descriptive facts which a reasonable investigation could be
expected to cover, and have insured that all those facts were included in the warrant.”).
Gudbrandsen’s testimony that such data might be found in video files is helpful but nOt
indispensable in determining whether the search exceeded the scope of the warrant.
74

We therefore hold that probable cause existed for the police to examine the video files on

defendant’s cell phone and that the images Gudbrandsen encountered of the victim were in plain
view. Thus, there was a sufficient nexus between defendant’s cell phone and the underlying
offenses.

175

2. Good Faith

-25—>

2020 ILApp (2d) 170379
K 76

Though we have concluded that the warrant was supported by probable cause, we will

comment briefly on the State’s alternative basis for affirmance: good faith. For suppression to be
an appropriate remedy, it is necessary that the officers involved were not acting in good faith.
See People v. LeFlore, 2015 IL 116799,

24-25. Our supreme court has explained, “Even if

one assumes a want of particularity in the affidavits, the agents’ reasonable and good-faith
belief, although a possibly mistaken one, that the searches were authorized under the warrants,
insulated the searches from a motion to suppress.” Stewart, 104 Ill. 2d at 477. Moreover, “a
police officer’s decision to obtain a search warrant ‘is prima facie evidence that he was acting in
good faith.’ ” People v. Bryant, 389 Ill. App. 3d 500, 525 (2009) (quoting United States v. Peck,
317 F.3d 754, 757 (7th Cir. 2003)). Generally, good faith does not exist where a “magistrate
simply rubber-stamped the warrant application, the officers were dishonest or reckless in
preparing the affidavit, or the warrant was so lacking in probable cause that no officer could
have relied on it.” (Internal quotation marks omitted.) Id. This is an objective inquiry, focused on
whether “a reasonably well trained officer would have known that the search was illegal” in light
of “all of the circumstances” (United States v. Leon, 468 U.S. 897, 922 n.23 (1984)) rather than
the subjective mental state of a given officer {Herring v. United States, 555 U.S. 135, 145
(2009)).
U 77

Defendant argues that there is nothing in the record from which a reasonable officer

could infer that the cell phone was connected to the offenses listed in the complaint We
disagree. It is inferable that the cell phone, which was found in the vehicle used in the offenses,
was present when the offenses were committed, and it is a device capable of GPS tracking and
recording audio and video. Hergott reasonably presented this information to Judge Collins for a
determination of whether this link was sufficient.

-26-

2020IL App (2d) 170379
<j 78

Here, defendant admitted to the police that the vehicle was his. In Manzo, the connection

between the offenses and the targeted residence was more tenuous—two drug sales were merely
near the house, the seller was observed leaving the house shortly before one sale, and the seller
used a vehicle registered to a resident of the house. Manzo, 2018 IL 122761,
noted, Manzo is not directly analogous, as it involved a residence. See id.
179

37. Moreover, as

35.

Further, defendant points out that the complaint contained much irrelevant detail. For

example, it included information about the phone’s data storage and Internet capabilities:
“Electronic files received or created using a cell phone can be stored for years at little or no cost
and “files that have been viewed via the Internet can be recovered on the service provider’s
server based on history of usage and time of creation.” None of this has any apparent relevance
to this case. It also included a lengthy discussion of bow computer technology has affected the
production and distribution of child pornography, even though the child pornography counts
were not added until after the search.
| 80

The extraneous detail in the complaint suggests to defendant that the warrant was cut-

and-pasted from past warrants. We reject the notion that the extra information indicates a lack of
good faith. Where an officer is “dishonest or reckless in preparing the affidavit,” good faith is
lacking, but nothing in Hergott’s affidavit suggests recklessness or dishonesty. Indeed, defendant
does not claim that any of the officer’s assertions are demonstrably false. See Bryant, 389 Ill.
App. 3d at 525.
f 81

Defendant cites People v. Lenyoun, 402 Ill. App. 3d 787, 795 (2010), for the proposition

that it is bad faith for “officers [to] essentially cut and paste information from a prior authorized
warrant to a second warrant application for a separate residence without adding any new
information connecting the new residence to the criminal offense.” In Lenyoun, two search

-27-

2020IL App (2d) 170379
warrants contained similar information but targeted different places. The court rejected the .
second warrant because the content was unrelated to its target, not because the content had been
copied from the earlier warrant. See id. at 796. Even if we were to assume that the descriptions
of the handheld technology in this case were taken from another warrant, many details of
defendant’s conduct were added, including eyewitness accounts and the discovery of the devices
in the vehicle used in the offenses. Lenyoun is factually distinguishable.
% 82

We recognize that the law surrounding the search of devices like smart phones,

computers, and tablets is recent and developing. However, we find that the officers’ actions in
this case with regard to searching defendant’s cell phone were clearly taken in good faith. Quite
simply, it was inferable that the phone was at the crime scene collecting GPS data, and the
officers quite reasonably sought a judicial determination as to whether this constituted probable
cause.
If 83
84

B. One-Act, One-Crime
Defendant was convicted of two counts of child pornography. The first count (count IV)

alleged that defendant “filmed or videotaped or otherwise depicted *** said child *** engaged
in any act of sexual penetration with any person in that there was a penis on the vagina of the
victim.” The second (count V) alleged that defendant “filmed or videotaped or otherwise
depicted *** said child *** in that the video depicts the unclothed vagina of the victim.” Both
depictions occur in a single, three-minute long recording. Though this issue was not properly
preserved, one-act, one-crime issues fall within the second prong of the plain-error doctrine.
People v. Nunez, 236 Ill. 2d 488,493 (2010). Review is de novo. Id.

-28-t*

2020IL App (2d) 170379
185

Defendant asserts that one of these counts must be vacated in accordance with one-act,

one-crime principles. The supreme court discussed the one-act, one-crime rule in People v. King,
66 Ill. 2d 551,566 (1977):
“Prejudice results to the defendant only in those instances where more than one
offense is carved from the same physical act. Prejudice, with regard to multiple acts,
exists only when the defendant is convicted of more than one offense, some of which are,
by definition, lesser included offenses. Multiple convictions and concurrent sentences
should be permitted in all other cases where a defendant has committed several acts,
despite the interrelationship of those acts. ‘Act,’ when used in this sense, is intended to
mean any overt or outward manifestation which will support a different offense. We
hold, therefore, that when more than one offense arises from a series of incidental or
closely related acts and the offenses are not, by definition, lesser included offenses,
convictions with concurrent sentences can be entered.”
A court must consider whether a conviction arose from a single physical act, and, if it did not,
the court must then consider whether any of the offenses are lesser included offenses. People v.
Coats, 2018 IL 121926, f 12. Defendant’s argument is directed to the initial inquiry.
^ 86

In Nunez, 236 Ill. 2d at 494, the supreme court held, “Multiple convictions are improper

if they are based on precisely the same physical act.” In People v. Hagler, 402 Ill. App. 3d 149,
153 (2010), the court explained, “When a common act is part of both offenses, or is part of one
offense and the only act of another, multiple convictions can still stand.” Here, while there is
certainly a common act—recording—defendant produced two distinct pornographic images by
recording the victim’s vagina and a penis touching the victim’s vagina. Either act, standing
alone, would support a conviction. See King, 66 Ill. 2d at 566 (“ ‘Act,’ when used in this sense,

-29-

2020 IL App (2d) 170379
is intended to mean any overt or outward manifestation which will support a different offense.”).
That these were closely related acts does not implicate one-act, one-crime principles. People v.
Priest, 297 Ill. App. 3d 797, 802 (1998) (citing King, 66 Ill. 2d at 566).
1| 87
H 88

Accordingly, defendant’s argument on this point lacks merit.
IV. CONCLUSION

If 89

In light of the foregoing, the judgment of the circuit court of Lake County is affirmed.

If 90

Affirmed.

191

PRESIDING JUSTICE BIRKETT, specially concurring:

If 92

I agree with my colleagues that Hergott’s complaint for a search warrant established

probable cause to search defendant’s cell phone for GPS data. I write separately because I
believe that the complaint, together with commonsense inferences and matters of common
knowledge, established probable cause to search the cell phone for images capturing the sexual
assault of M.G. or of other children engaging in sexual activity.
If 93

The majority recites some of the principles governing our review. We should also keep in

mind the following principles. While we are reviewing the trial court’s denial of defendant’s
motion to suppress evidence, the focus of our analysis is Judge Collins’s decision that Hergott’s
complaint set forth probable cause to search the video files in defendant’s cell phone. We owe
great deference to Judge Collins’s decision. See Illinois v. Gates, 462 U.S. 213, 236 (1983). The
issuing judge’s task is to analyze the information contained in. the affidavit, consider the type of
crime being investigated, and make a “practical, common-sense decision” as to whether the
reasonable inferences from those facts establish a “fair probability” that evidence of a crime will
be found in a particular place. Id. at 238. “A search warrant’s description is sufficient if it
enables the officer executing the warrant, with reasonable effort, to identify the place to be

-30-

2020IL App (2d) 170379
searched.” People v. McCarty, 223 Ill. 2d 109, 149 (2006). Courts should not invalidate warrants
by interpreting the affidavit in a hypertechnical, rather than a commonsense, manner. People v.
Thomas, 62 Ill. 2d 375, 380 (1975); People v. Batac, 259 Ill. App. 3d 415, 422 (1994). In
considering a defendant’s challenge to a search warrant, we must bear in mind the presumption
that the search warrant was valid. People v. Lucente, 116 Ill. 2d 133, 153 (1987). As the majority
notes {supra U 49) we must presume that Hergott’s statements in his affidavit are true. People v.
McCoy, 135 Ill. App. 3d 1-059, 1065 (1985). When there is no direct information to establish a
nexus between the place to be searched and the offense, “reasonable inferences may be
entertained to create this nexus.” Id. at 1066 (citing 1 Wayne R. LaFave, Search and Seizure
§ 3.7(d), at 706 (1st ed. 1978); People v. Beck, 306 Ill. App. 3d 172, 179 (1999); People v.
Teague, 2019 IL App (3d) 170017, If 11. “The test for probable cause is not reducible to ‘precise
definition or quantification.’ ” Florida v. Harris, 568 U.S. 237, 243 (2013) (quoting Maryland v.
Pringle, 540 U.S. 366, 371 (2003)).

a t

Finely tuned standards such as proof beyond a reasonable

doubt or by a preponderance of evidence *** have no place in the [probable-cause] decision.
Id. at 243-44 (quoting Gates, 462 U.S. at 235). All that is required is a “fair probability” on
which “reasonable and prudent [people], not legal technicians, act.” (Internal quotation marks
omitted.) Id. at 238. In making a probable cause determination, the evidence “ ‘must be seen and
weighed not in terms of library analysis by scholars, but as understood by those versed in the
field of law enforcement.

9 99

(Internal quotation marks omitted.) People v. Jones, 215 HI. 2d 261,

274 (2005) (quoting Texas v. Brown, 460 U.S. 730, 742 (1983)). “Where law enforcement
authorities have probable cause to believe that a container holds contraband or evidence of a
crime, but have not secured a warrant, the Court has interpreted the Amendment to permit
seizure of the property, pending issuance of a warrant to examine its contents, if the exigencies

-31-

2020 ILApp (2d) 170379
of the circumstances demand it or some other recognized exception to the warrant requirement is
present.” United States v. Place, 462 U.S. 696, 701 (1983).
194

While the law requires judges to be neutral, in evaluating probable cause, judges may

consider what “ ‘is or should be common knowledge.

9

99

United States v. Reichling, 781 F.3d

883, 887 (7th Cir. 2015) (quoting United States v. Server, 692 F.3d 774, 778 (7th Cir. 2012)); see
People v. Jones, 31 Ill. 2d 42, 48 (1964). “[I]n a case involving possible evidence of child
pornography or sexual exploitation of a child, the probable cause inquiry ‘must be grounded in
an understanding of both the behavior of child pornography collectors and of modem
technology.

9

99

Reichling, 781 F.3d at 887 (quoting United States v. Carroll, 750 F.3d 700, 704

(7th Cir. 2014)). The United States Supreme Court has repeatedly cautioned that “after-the-fact
scrutiny by courts of the sufficiency of an affidavit should not take the form of de novo review.”
Gates, 462 U.S. at 236.
1} 95

The defendant has the burden of proof to establish that the police conducted an illegal

search of his cell phone, specifically the video files. 725 ILCS 5/114-12(b) (West 2012); People
v. Cregan, 2014 IL 113600, U 23; People v. Wells, 273 HI. App. 3d 349, 351 (1995), “If the
defendant makes a prima facie showing that the evidence was obtained in an iUegal search or
seizure, the burden shifts to the State to provide evidence to counter the defendant’s prima facie
case.” Cregan, 2014 EL 113600, If 23. The ultimate burden of proof remains with the defendant,
however. Id.
96

The essence of defendant’s argument dining the motion-to-suppress hearing was defense

counsel’s remarks that “[n]ot a single witness states that a cell phone was used in the
commission of the offense” and that it was “actually incredibly rare” for someone to tape an
assault. These assertions do not come close to establishing a prima facie case that Hergott’s

-32-

2020IL App (2d) 170379
complaint failed to establish a nexus between the cell phone’s video files and the crime against
M.G. Defendant’s arguments are refuted by reams of scholarship, case law, common knowledge,
and common sense.
197

As the United States Supreme Court observed in Riley v. California, 573 U.S. 373

(2014), cell phones are used to capture intimate activity every day by millions of Americans.
“Modem cell phones are not just another technological convenience. With all they contain and
all they may reveal, they hold for many Americans ‘the privacies of life.

9

99

Id. at 403 (quoting

Boydv. United States, 116U.S. 616, 630(1886)).
98

My colleagues do not discuss the two cases defendant relies on to argue that there was no

nexus to search the video files. Since I believe that Hergott’s affidavit established probable cause
to search the video files, 1 must address the cases. See Siegel v. Levy Organization Development
Co., 153 Ill. 2d 534, 544 (1992) (“it is imperative that reviewing courts set forth their rationale
and discuss the relevant case law pertaining to the issues in a given case”).
5| 99

At oral argument, defense counsel argued that defendant’s possession of a cell phone “in

and of itself’ was insufficient to justify the search of said phone. Counsel argued that “all the
recent cases,” all federal cases, support this proposition. Defense counsel pointed to a case that
he did not cite in his briefs, United States v. Ramirez, 180 F. Supp. 3d 491 (W.D. Ky. 2016).2
Nevertheless, as the State did not raise an objection, I will consider Ramirez. Federal court
decisions, like those of our sister states, are not binding. They may be persuasive authority and
may be followed if the court believes that the analysis is reasonable and logical. Werderman v.
Liberty Ventures, LLC, 368 Ill. App. 3d 78, 84 (2006).

Failure to seek leave of court to cite additional authority deprives both opposing counsel and this court
from adequately preparing for oral argument. Counsel is cautioned to comply with Illinois Supreme Court Rule
341(h)(7) (eff. May 25,2018) (“[p]oints not argued are forfeited and shall not be raised *** in oral argument”) in the
future.

-33-

2020IL App (2d) 170379
100 Ramirez was arrested for conspiracy to possess with intent to deliver a large quantity of
marijuana. He possessed a cell phone when he was arrested. The affidavit sought to search “all
personal files and information stored within the cell phone, to include text messages, phone
contacts, and pictures.” Ramirez, 180 F. Supp. 3d at 492. The affiant checked a box that stated
that there was “ ‘probable cause’ ” to believe that the phone contained evidence of “ ‘a crime.

9 99

Id. The affiant also stated that he knew through his training and experience that “individuals may
keep text messages or other electronic information stored in their cell phones which may relate
them to the crime and/or co-defendants/victim.” Id. at 493. The United States District Court for
the Western District of Kentucky stated that, “[wjithout any additional detail tying Ramirez’s
arrest to his cell phone, this boilerplate statement is insufficient to establish the particularized
facts demonstrating fair probability that evidence of a crime will be located on the phone.” Id. at
494. Even though the affiant’s experience may be considered in determining probable cause, “it
cannot substitute for the lack of evidentiary nexus.” (Internal quotation marks omitted.) Id at
495.
1101 In the instant case, Hergott’s complaint for a search warrant did not suffer from the lack
of evidentiary detail as was the case with the affidavit in Ramirez. As the district court in
Ramirez noted in a footnote, the affidavit did not include the word “charge,” did not mention a
complaint filed against Ramirez on May 17, 2013, or the indictment issued the same day the
search warrant was issued, or cite the statute Ramirez was accused of violating. Id. at 494 n.4.
The date or dates during which Ramirez engaged in the conspiracy were not mentioned. The
district court noted that the only information “indicating any likelihood that evidence of a crime
might be found” was the fact that Ramirez was arrested while possessing the phone. Id. at 495.1

-34-

2020 IL App (2d) 170379
also note that child molestation and child pornography are crimes that are, by their nature,
solitary and secretive crimes. See State v. Brennan, 674 N.W.2d 200, 206 (Minn. Ct. App. 2004).
U 102 In the instant case, Hergott’s affidavit was seven pages in length and contained detailed
facts concerning the abduction, the injury to M.G.’s vagina, M.G.’s emotional state, and the
recovery of the cell phone, media player, GPS device, and lotion inside defendant’s vehicle,
which was the likely scene of the sexual assault. The affidavit detailed Hergott’s 23 years of
experience as a police officer, including “training in the area of child sexual
abuse/assauit/expioitation, and training in the area of computer crimes involving children.”
Hergott explained that “cellular phones and cellular phone technology” have revolutionized the
way photographs are “viewed, produced, distributed, stored, and utilized.” He discussed the
behavior of people who view, produce, distribute, and utilize child pornography. He stated that
individuals who collect and trade child pornography keep the images “for long periods of time,
so the individual can view these images at his discretion.” In his reply brief, defendant states that
Hergott '"wanted to seared tfie phone tor videos, photographs, and internet searches." Deiendant
argues that we should disregard the State’s argument that, from the facts, it is fair to infer that
defendant planned the offense.
103 At oral argument, defense counsel argued that the details provided in the warrant were
not enough to establish the nexus element of probable cause. He argued that the warrant was
“bare bones” as to the cell phone. Defense counsel conceded that several questions arise from
the four comers of the warrant, such as: “Who abducted M.G.? Where was she taken? Who
sexually assaulted M.G? Why did this occur?” Counsel said, “[ejxactly, and you need to put that
in the warrant.” I disagree. These are commonsense inferences from which Judge Collins could
determine that a nexus existed to search the cell phone to find answers to these questions. An

-35-

2020 IL App (2d) 170379
issuing judge has the authority to draw reasonable inferences from the information supplied to
him or her. Gates, 462 U.S. at 240. Requiring an affiant to document every reasonable inference
is the type of hypertechnical de novo review that we must avoid in reviewing the sufficiency of
an affidavit.
Tf 104 Defendant cited a single case, People v. Zimmerman, 277 F.3d 426 (3d Cir. 2002), for the
proposition that the mere fact that a person has been accused of child molestation does not
provide probable cause to search for child pornography. Zimmerman was a high school teacher
and coach charged with sexually abusing several boys on the basketball team. Zimmerman had
shown a video clip of adult pornography to several students. Id. at 430. The police obtained a
search warrant authorizing the search of Zimmerman’s computer and computer-related
equipment for “ ‘any sexual materials,’ ” including “ ‘images of humans in sexuai contact with
animals or other prohibited sexual acts.’ ” Id. at 431. The warrant included child pornography as
one of the crimes that Zimmerman was suspected of committing. Child pornography was
recovered on Zimmerman’s computer, and he was charged with child pornography (18 U.S.C.
§ 2252A(a)(5)(B) (Supp. IV 1999)). Zimmerman, 277 F.3d at 43.1. Zimmerman’s motion to
suppress was denied. He entered a conditional plea of guilty, preserving the right to appeal the
issue of probable cause. The circuit court reversed the district court, noting that the government
conceded that there was no information that Zimmerman had ever purchased or possessed child
pornography. Id. at 429. There was, however, information in the affidavit that “ ‘persons who
have sexual interest or sexual contact with children may often collect images, pictures, photos or
other visible depictions of children, or of children depicted in sexually explicit positions.’ ” Id. at
433. The court said that there was no information “indicating that child pornography was—or
ever had been—located” in Zimmerman’s home. Id. It also rejected the government’s argument

-36-

2020IL App(2d) 170379
that the search for the adult pornography was proper and that the discovery of the child
pornography was “discovered incident to a legal search.” Id. at 433-34. The circuit court
concluded that the information about the adult pornography, a video of a woman having sex with
a horse, was stale. Information from six and ten months earlier stated that Zimmerman had
shown the video, but there was no information that it was ever “downloaded from the computer
on which the boys allegedly viewed it.” Id. at 434. The court also rejected the government’s
“good faith” argument, stating that it was “ ‘entirely unreasonable’ ” for an individual to believe
that there was the “requisite indicia of probable cause.” Id. at 437.
f 105 Judge Alito dissented. He discussed the state’s charges that were pending against
Zimmerman. Judge Alito noted that the affidavit submitted in support of the search warrant
application “set out ample evidence supporting these charges.” Id. at 438-39 (Alito, J.,
dissenting). Some of the incidents had taken place in Zimmerman’s home, and he “had shown
sexually explicit materials to minor students.” Id. at 439. Judge Alito stated that “[t]he warrant
authorized a search for evidence of the offenses with which the defendant was charged and
related crimes involving victimization of minors.” Id. He would have found that the search
warrant was not stale, because it was probable that the video clip of the woman having sex with
a horse was downloaded to the computer’s hard drive. The clip had been shown to minors
repeatedly. Id. at 439-40. Judge Alito stated that the affidavit “showed that the defendant had a
sexual interest in minors and that he had used sexual materials on several occasions as part of his
course of conduct. All of this information tends to support a finding of probable cause.” Id. at
440. Judge Alito also disagreed with the majority’s rejection of the government’s “good faith”
arguments under United States v. Leon, 468 U.S. 897 (1984). Judge Alito noted that there is no

-37-

2020IL App (2d) 170379
“bright line between fresh and stale probable cause.” Zimmerman, 277 F.3d at 440. As I explain
below, I agree with Judge Alito’s dissent in Zimmerman.
f 106 At oral argument here, defense counsel stated that he could find only one case that
disagreed with the holding in Zimmerman. Counsel said that it was a California case, but he did
not provide the name of the case or a citation. From my research, I discern that counsel was
referring to People v. Nicholls, 71 Cal. Rptr. 3d 621 (Ct. App. 2008). In Nicholls, Nicholls was
accused of molesting his 10-year-old daughter, who lived with her mother. The abuse lasted
several months. A search warrant was executed on Nicholls’s computer and laptop bag. The
police recovered “10,000 still images and 47 movie files of child pornography on the hard drives
of defendant’s computer.” Id. at 623. The affidavit of the police detective detailed his 17 years of
experience, including training in “child abuse and sexual assaults.” Id. It also detailed the
victim’s description of the sexual molestation but did not reveal the use of a computer or a cell
phone or the use of pornography during the sexual molestation Id. at 623-24. The affidavit
stated that the defendant had turned himself in to the police. He had been staying with his mother
prior to turning himself in; In a brief recorded phone call, the defendant told his mother that he
had stored his computer in the garage attic and asked, “ ‘is itOK.up there?’ ” Nicholls’s mother
said that it was “ ‘All right.’ ” He told her he did not want “ ‘anybody messing with, um, with the
paperwork and stuff I have in there.’ ” The affidavit stated how, based on the affiant’s training
and experience, he knew that child pornography is used by people who molest children. Id. at
624. In summary, the affidavit stated that, generally, people who molest children exhibit the
following characteristics: they (1) receive sexual gratification from child pornography;
(2) collect sexually explicit materials for sexual gratification; (3) use pornography to lower
children’s inhibitions; (4) rarely discard the material, especially when used to seduce victims;

-38-

2020IL App (2d) 170379
(5) share information and support with other molesters; (6) rarely destroy the correspondence;
(7) use pornography to relive fantasies or actual encounters; (8) go to great lengths to conceal
and protect their pornography from discovery; (9) often correspond with others who share their
interests, via computerized bulletin boards; (10) keep diaries of their sexual encounters with
children; (11) collect and maintain material on the subject of sex with children, which they use to
seduce children; (12) often keep mementos, like a child’s underwear; and (13) collect and store
digital images of their victims and, if they take a photo of a victim in the nude, there is a high
probability that the child was molested. Id.
1107 Nicholls moved to suppress the evidence found on his computer and hard drive. He
argued that the police left out of the affidavit that in his phone call to his mother he also
expressed concern about his clothing, so the commonsense conclusion was merely that he was
concerned about his belongings. He argued that there was nothing to indicate a fair probability
that any child pornography would be found on his computer, because “there was no indication
that defendant ever showed the victim any pornography, and to the contrary the child said she
was not shown any images.” Id. at 625. He argued that the fact that he was charged with “lewd
and lascivious conduct is a bare conclusion which does not constitute probable cause.” Id. The
trial court denied the motion to suppress. Nicholls entered a “no contest” plea to all charges and
was found guilty on all counts.
108 On appeal, Nicholls argued that the affidavit was “deficient because it (1) did not indicate
he used the laptop or any computer or computer-related media in the alleged molestation of his
daughter, (2) did not indicate he used child pornography in the alleged molestation, and (3) did
not indicate he expressed any general interest in receiving or transmitting child pornography,
through the computer or otherwise.” Id. at 629. The court of appeals rejected Nicholls’s

-39-

2020 IL App (2d) 170379
argument that it should disregard the phone call and the expert opinion about the habits of child
molesters. Id. The court noted that the warrant application did not depend solely on the affiant’s
opinion about activities of child molesters. The affidavit also contained the victim’s statements
and Nicholls’s concern about his computer. Id. The court also distinguished Zimmerman, “where
the government conceded there was no probable cause to search for child pornography.”
(Emphasis omitted.) Id. at 630-31 (citing Zimmerman, 277 F.3d at 432). The court also disagreed
with other out-of-state cases cited by Nicholls, like Burnett v. State, 848 So.2d 1170 (Fla. Dist.
Ct. App. 2003). The court disagreed with the Florida Appellate Court’s failure to “give weight to
the affidavit for reasons other than the lack of qualifications of the expert.” Nicholls, Cal. App.
4th at 715. The court declined to comment on “research studies about child molesters, which are
not part of the record.” Id.
f 109 Contrary to defendant’s argument, Nicholls is not the only case that disagrees with
Zimmerman. In fact, there is a significant body of case law from the federal district and circuit
courts, as well as from our sister states, discussing the connection between child molestation and
child pornography. Before discussing those cases, I will examine the probable cause
determination in other types of cases where, like here, there is no independent evidence that the
cell phone was used in the commission of.the offense.
Tf 110 I begin with Johnson v. State, 2015 Ark. 387, 472 S.W.3d 486, from the Supreme Court
of Arkansas. Johnson was a suspect in a murder committed during an aggravated robbery.
Johnson and his codefendant were arrested during a traffic stop. Johnson had a cell phone on his
person when he was arrested. The police secured the phone but did not search it. Nearly two
years later, the police obtained a warrant to search the contents of Johnson’s phone. The affidavit
set out the details of the crime and the fact that Johnson had a cell phone on him at the time. The

-40-

2020 IL App (2d) 170379
affidavit also stated that the codefendant implicated himself and Johnson. Id. at 6. There was no
information in the affidavit about the cell phone other than the affiant’s belief that “said phone
contains possible evidence regarding the *** homicide.” Id. at 5. The supreme court noted that
the cell phone was recovered from Johnson “approximately twenty-hours after the homicide.” Id.
at 6. The court said that, because another person was involved, it was “reasonable to infer” that
the cell phone was used to communicate with others “before, during, or after” the murder. Id.
The court also noted that a confidential informant tipped off the police and it was therefore
reasonable to infer that Johnson communicated with some third party regarding his involvement.
Id. “Based on these facts, it is reasonable to conclude that the phone may have been used as a
communication device regarding the homicide.” Id. at 7. The court held that there was adequate
probable cause to issue the search warrant.
TJ 111 Hedgepath v. Commonwealth, 441 S.W. 3d 119 (Ky. 2014), from the Supreme Court of
Kentucky, is another murder case involving the search of a cell phone pursuant to a warrant. On
January 17, 2010, Hedgepath called 911 and reported that the victim, his girlfriend, would not
wake up. Hedgepath told the police at the scene that the victim’s ex-boyfriend had come over
when he was gone and had beaten her. Hedgepath left to take the victim’s two children to the
hospital but never arrived there. Instead, he took them to the victim’s relatives. A detective tried
to reach Hedgepath on his cell phone. Based on cell data, the police found Hedgepath’s vehicle
at an apartment complex. At about the same time, Hedgepath called the state police and agreed
to come in for an interview. During the interview, Hedgepath denied beating the victim and said
that his “cell phone” could confirm that he was not at the apartment when the victim was beaten.
Id. at 122. He claimed that, when he arrived at the victim’s apartment the night before the
murder, the victim told him that a man named “Bobby” had beaten her. He told the police that,

-41-

2020IL App (2d) 170379
before leaving the apartment, he and the victim “had a meal together and then engaged in
consensual anal, vaginal, and oral sex.” Id. The police arrested Hedgepath after the interrogation
ended. The police seized Hedgepath’s cell phone from his vehicle and eventually secured a
warrant to search the vehicle and its contents, including his cell phone. Id. at 122, 130.3 Videos
of Hedgepath’s rape and beating of the victim were recovered from the cell phone. Id. at 123.
The trial court denied Hedgepath’s motion to suppress evidence seized from the cell phone.
^ 112 On appeal, Hedgepath argued that the search warrant for his cell phone was insufficient
because it did not describe the contents of the phone to be searched. Id. The court noted that,
while the warrant did not limit the parts of the phone that could be searched or the type of data or
files to be sought, the clear thrust of the warrant was for evidence related to the sexual assault
committed on the victim. The warrant allowed the police to search “ ‘all places in size where any
of the above described personal property may be stored, hidden, and/or concealed,’ ”
including but not limited to all electronic equipment, computers, and all phones.’ ” Id. at 130.
As in the instant case, the search revealed evidence of Hedgepath’s sexual assault of the victim*
not evidence of some other crime. Id. at 131. The court noted that, in Riley, the Supreme Court
held that, while a search warrant is generally required to search a cell phone, its “ ‘holding, of
course, is not that information on a cell phone is immune from search.’ ” Id. at 130 (quoting
Riley, 573 U.S. at 401). Although the Kentucky supreme court discussed the particularity
requirement of the fourth amendment, the court specifically found that the search warrant
authorized the search and seizure of the videos of the rape and beating of the victim from

Hedgepath claimed that the seizure and search of the cell phone was the fruit of the
poisonous tree because the police did not get a warrant to get the GPS data from AT&T. The
court rejected this argument because Hedgepath drove himself to the interview. Any taint was
attenuated. Hedgepath, 441 S.W.3d at 126.
-42-

2020IL App (2d) 170379
Hedgepath’s cell phone. Id. The court said, “[t]his was not a warrantless search of the sort
condemned in Riley.” Id.
1113 In Moats v. State, 148 A.3d 51, 54 (Md. Ct. Spec. App. 2016), the Court of Special
Appeals of Maryland upheld the search of a cell phone for “evidence related to the drug offenses
and the sexual assault of’ a minor. In the affidavit in support of the search warrant, the affiant
said that he met with the victim at the hospital. She told the affiant that she was riding in a car
with Moats and another male. While out riding, they stopped, and Moats supplied each of them
with “suboxone.” They were all under the age of 18. The victim said that she ended up at a party
but could not “remember where the party was at and [did] not know who sexually assaulted her.”
She said that she was

u (

high’ ” and that, at some point, she “used heroin as well.” The affidavit

stated that Moats was interviewed. He admitted supplying suboxone and marijuana but “denied
any knowledge and/or involvement with the sexual assault.” The other occupants of the vehicle
were interviewed and denied knowledge of the sexual assault but stated that, when the victim got
into the vehicle, she said that

u <

she was sexually assaulted the night before at a party.

9

n

Id. at

54-55. The affidavit went on to state that “[‘[y]our Affiant knows through his training and
experience as a Criminal Investigator that individuals who participate in such crimes
communicate via cellular telephones, via text messages, calls, e-mails, etc.’ ” Id. at 55. The
warrant sought to search Moats’ cell phone for evidence of the sex offense and the drug offenses.
A search of the phone recovered sexually explicit photos and a video of a young woman who
turned out to be Moats’s then 15-year-old girlfriend. Id. Moats was charged with three counts of
possession of child pornography and one count of second-degree assault. The trial court denied
Moats’s motion to suppress the search of his cell phone. Id.

-43-

2020IL App (2d) 170379
^[114 On appeal, Moats argued that the application for the search warrant “ ‘did not provide
any nexus between the alleged criminal activity and the phone.’ ” Id. at 56. The court stated that
“[c]ertainly, from our case law, it is clear that individuals use their cell phones to document all
kinds of criminal behavior on a rather regular basis and that data recovered from cellular phones
is frequently admitted as evidence of guilt in criminal trials.” Id. at 59. The court stated that die
police acted properly in seizing the cell phone incident to Moats’s arrest and then subsequently
obtaining a search warrant, thus complying with “the Constitution and Article 26 of the
Maryland Declaration of Rights.” Id. (citing Riley, 573 U.S. at 388).
1115 The court held that direct evidence that Moats’s phone contained data that was relevant
to proving his involvement in the alleged offenses was unnecessary. “[PJrobable cause may be
inferred from the type of crimes, the nature of the items sought, the opportunity for concealment,
and reasonable inferences about where the defendant may hide the incriminating items.”
(Internal quotation marks omitted.) Id. at 61. The court concluded that the affiant’s averments,
together with other evidence in the affidavit, “was sufficient to provide a common-sense nexus
between the offenses Moats was accused of committing and the phone to be searched.” Id. at 62.
Alternatively, if the warrant judge did not have a substantial basis to issue the warrant, the court
would have found that the good-faith exception allowed the admission of the evidence seized
from the cell phone. Id.
^116 The same day Moats was filed, the Court of Appeals of Maryland filed its opinion in
Stevenson v. State, 168 A.3d 967 (Md. 2017). There, the initial police investigation focused on a
man found “lying on the ground, with a bloodied face, his pants around his ankles, and no wallet
or shoes” outside a Moose Lodge on July 22, 2015. The victim had life threatening injuries. Id.
at 971. Stevenson was arrested in a separate assault and robbery on July 23, 2015. He had the

-44-

2020IL App(2d) 170379
victim’s wallet and shoes. The police also seized Stevenson’s cell phone from his person. A
detective sought and received a search warrant to search Stevenson’s cell phone for
U

(

[electronic communications information’ ” stored on the cell phone pertaining to the assault

and robbery of the victim. Id. at 972. The search produced six photographs of the victim just
after the assault and robbery. Stevenson filed a motion to suppress. Before there was a hearing,
the detective prepared a second warrant application and affidavit, containing the same language,
“save for the requested scope of the search of the cell phone and [Stevenson’s] acknowledgment
that the cell phoxie belonged to him.” Id. The affiant stated that he believed

mmugn

LmdJ

knowledge and experience that suspects in robberies and assaults will sometimes take pictures,
videos and send messages about their criminal activities on their cellular phones.’ ” Id. The
affidavit for the second warrant sought more than “electronic communications,” and it was
presented to a different judge from the judge who issued the first warrant. The affidavit made no
reference to the first warrant or the recovery of the six photographs.
II ii / me parties agreed mat me mouon to suppress applied io me second warrant, m. at y to.
Stevenson maintained that the affidavit lacked “specific facts connecting the crime and the cell
phone.” The State responded that “it is now ‘common knowledge’ that people take pictures and
videos on their cell phones of the crimes they commit.”. Id. The State also emphasized that
Stevenson admitted that he assaulted the victim. Id. Stevenson was convicted following a bench
trial.
1118 On appeal, Stevenson argued that the “warrant affidavit failed to provide a nexus
between the crime alleged and the ‘place’ the police sought to search.” Id. at 974. He also argued
that the “good faith” exception to the probable-cause requirement did not save the photos from
exclusion, because no reasonable officer would have grounds to believe that the warrant was

-45-

2020 IL App (2d) 170379
properly issued “upon the notion that people who commit crimes ‘sometimes’ have evidence of
such crimes on their cell phones.” Id. The court, citing Gates, stated that “[t]he Supreme Court
has observed that probable cause may be based on ‘common-sense conclusions about human
behavior.’ ” Id. at 975 (quoting Gates, 462 U.S. at 231). The court concluded that the issuing
judge had a substantial basis for finding probable cause to search the cell phone for “ ‘[a]ny and
all information, including but not limited to all pictures, movies, electronic communications in
the form of text, numeric, and voice messages, detailed phone records to include all
incoming/outgoing calls and Facebook messages contained within [the] phone.” Id. at 976. The
court took into account the historical facts, the affiant’s statement that suspects “ ‘sometimes
take pictures, videos and send messages,

9

99

as well as the Supreme Court’s “recognition of the

prevalence of cell phones in the population and the degree of detail of one’s daily life that is
often contained in a cell phone.” Id. (citing Riley, 573 U.S. at 394-95). Like defendant’s
argument in the instant case, Stevenson argued that the affidavit did not set forth any direct
evidence that the cell phone contained evidence of the crimes of which he was accused. Citing
Moats, the court stated that direct evidence has never been required by the fourth amendment. M
(citing Moats, 148 A.3d at 60). Stevenson further argued that the word “sometimes” in the
affidavit is “ ‘so generalized that it could provide the basis for a search on suspicion of any
offense, undermining the substantial protections for cell phones recognized in Riley.'' ” Id. at
976-77. While the court recognized and accepted the privacy interest in cell phones discussed in
Riley, it stated that “[t]he Riley Court did not even intimate, much less state, that simply because
cell phones hold a ‘broad array’ of information, a search warrant cannot issue.” Id. at 977
(quoting Riley, 573 U.S. at 397). The court interpreted the affiant’s use of the term “sometimes”
under oath to mean “more than ‘rarely’ and less than ‘more often than not.

-46-

5 »*

Id. The court also

2020IL App (2d) 170379
said, “[w]e bear in mind, as well, that the warrant affidavit sought only such information as was
stored within the eighteen-hour period encompassing the time when [Stevenson] assaulted and
robbed [the victim].” Id. at 978. The court also considered the Supreme Court’s statement in
Riley that

it t

more than 90% of American adults who own a cell phone keep on their person a

digital record of nearly every aspect of their lives—from the mundane to the intimate.’ ” Id.
(quoting Riley, 573 U.S; at 395). The court went on to hold that, even if it had concluded that the
search warrant was not supported by a substantial basis for its issuance, it would not require
exclusion, because the police acted in good faith under Leon, 468 U.S. 897. Stevenson, 168 A.3d
at 978-80.
^[119 I now turn to the cases that discuss the issue of whether probable cause that a suspect has
molested a child or children, in and of itself, also establishes probable cause (nexus) to search for
child pornography. There is disagreement among federal circuit courts as to whether evidence of
child molestation creates probable cause for a search warrant for child pornography. In United
States v. Colbert, 605 F.3d 573, 578 (8th Cir. 2010), the Eighth Circuit held that there is “an
intuitive relationship between acts such as child molestation or enticement and possession of
child pornography.” The Colbert court also discussed its disagreement with other circuits that
have suggested that evidence of a “defendant’s tendency to sexually abuse or exploit children is
irrelevant to the probable cause analysis.” Id. I agree with the Eighth Circuit in Colbert, as its
analysis is in line with both the United States Supreme Court’s, as well as our supreme court’s
recognition that child pornography “ ‘is often associated with child abuse and exploitation,
resulting in physical and psychological harm to the child.’ ” People v. Hollins, 2012 IL 112754,
t 21 (quoting State v. Senters, 699 N.W.2d 810, 817 (Neb. 2005)). Our supreme court has
repeatedly “noted that child pornography is intrinsically related to child sexual abuse and states

47-

2020 ILApp (2d) 170379
have a compelling interest in safeguarding the physical and psychological health of children.” Id.
If 18 (citing New York v. Ferber, 458 U.S. 747, 756-59 (1982), and People v. Alexander, 204 Ill.
472, 477 (2003)). The “intrinsic” relationship between child molestation and child pornography
recognized in cases involving first amendment challenges to child pornography statutes cannot
be brushed aside when evaluating fourth amendment challenges to search warrants.
f 120 The facts in Colbert are as follows. On June 7, 2006, police responded to a park to
investigate a suspicious interaction between Colbert and a five-year-old girl. The child’s uncle
witnessed Colbert pushing the child on a swing and talking about movies and videos he had in
his home. The detective got a description of Colbert’s vehicle, which was subsequently stopped
by two patrol officers. Colbert consented to a search of his vehicle, where police found “a police
scanner, handcuffs, and a hat bearing the phrase ‘New York PD.

9

99

Colbert, 605 F.3d at 575.

Colbert explained that he had been employed as a security guard four years earlier. He admitted
speaking to the child about movies he had at his apartment. Colbert was taken to the police
station for questioning. A search warrant application was drafted “seeking permission to search
Colbert’s residence for books, photos, videos, and other electronic media depicting ‘minors
engaged in a prohibited sexual act or in the simulation of a prohibited sexual act.’ ” Id. The
warrant described Colbert’s interaction with the child where he told her “ ‘his apartment had
movies and videos she would like to watch and other things for her to do.’ ” Id. The warrant
described defendant’s vehicle as resembling a police vehicle. Id. at 575-76. The search of
Colbert’s apartment “resulted in the discovery of a number of children’s movies, a computer,
and numerous compact discs containing child pornography.” Id. at 576. Colbert was charged
with possession of child pornography. After his motion to suppress was denied, Colbert entered a
conditional plea and was sentenced to 120 months’ in prison. On appeal, Colbert argued that the

48-

2020IL App (2d) 170379
affidavit was “conclusory in nature, failing to specify the source of the information that it
contained.” Id. Relying on Gates, Colbert argued that such an affidavit could not establish
probable cause. Id. The court recognized that, although the affidavit was not a “model of detailed
police work,” it set forth “specific facts and explained] the investigation that took place.” Id.
The court rejected Colbert’s argument that the affidavit was “too conclusory,” citing United
States v. Summage, 481 F.3d 1075, 1078 (8th Cir. 2007). Colbert, 605 F.3d at 576.
121 Next, Colbert argued that the affidavit did not establish “a link between the evidence of
enticement at the park and child pornography in his home.” Id. the court noted that the evidence
from the park demonstrated that Colbert “attempted to lure a five-year-old to his apartment.” His
vehicle and clothing made him look like “a police officer, suggesting that he was attempting to
appear as an authority figure,” and he also “possessed handcuffs and a pair of binoculars.” Id. at
577. These facts “could reasonably give rise to the inference that he was surveilling the area,
looking for opportune targets. For no apparent reason, Colbert approached a five-year-old girl
and spoke to her for approximately forty minutes,” and he attempted to convince her to come to
his apartment, where he had “movies for her to watch and other things for her to do.” Id. The
court quoted the district court’s reasoning that “ ‘individuals sexually interested in children
frequently utilize child pornography to reduce the inhibitions of their victims,

9- 99

Id. The court

agreed that “sexual depictions of minors could be logically related to the crime of child
enticement, particularly under the facts of this case, in which Colbert had referred to movies and
videos that he wanted the child to view at his apartment.” Id. at 577.
1122 The Eighth Circuit recognized that the Sixth Circuit’s opinion in United States, v.
Hodson, 543 F.3d 286, 292 (6th Cir. 2008), held that “a search for child pornography was not
supported by probable cause where the affidavit was based on the defendant’s online confession

-49-

2020 ILApp (2d) 170379
to an undercover officer that he had an attraction to children and had sexually molested a sevenyear-old boy.” Colbert, 605 F.3d at 57. In Hodson, the Sixth Circuit noted the “lack of expert
testimony in the affidavit about the relationship between molestation and child pornography.” Id.
The court also recognized that a divided panel of the Second Circuit reached a similar conclusion
in United States v. Falso, 544 F.3d 110, 124 (2d Cir. 2008). In Falso, the Second Circuit said
that the offenses of child pornography and child abuse “are separate offenses and *** nothing in
the affidavit draws a correlation between a person’s propensity to commit both types of crimes.”
Id. at 123.
J 123 The Colbert court distinguished Hodson and Falso, stating that they “are factually
inapposite. Neither case involved an application for a search warrant based on the defendant’s
contemporaneous attempt to entice a child.” Colbert, 605 F.3d at 577. The court noted that, in
Falso, the defendant’s prior sexual abuse occurred some 18 years prior. Id. at 577-78 (citing
Falso, 544 F.3d at 114). The court also noted that “neither case involved an application to search
the exact location of the relevant sex crime.” Id. at 578. In Colbert, the warrant was executed the
same day as the enticement at the park and at the “very place” where Colbert wanted to be alone
with a five-year-old girl. Id. The court went on to comment that, “to the extent that Hodson and
Falso suggest that evidence of a defendant’s tendency to sexually abuse or exploit children is
irrelevant to the probable cause analysis, we respectfully disagree.” Id. The court observed that
the analysis in Hodson and Falso, in concluding that there is a “categorical distinction between
possession of child pornography and other types of sexual exploitation of children,” “seems to be
in tension with both common experience and a fluid, non-technical conception of probable
cause.” Id. The court noted that “[c]hild pornography is in many cases simply an electronic
record of child molestation.” Id. The court said that,

-50-

2020IL App (2d) 170379
“[f]or individuals seeking to obtain sexual gratification by abusing children, possession
of child pornography may very well be a logical precursor to physical interaction with a
child: the relative ease with which child pornography may be obtained on the internet
might make it a simpler and less detectable way of satisfying pedophilic desires.” Id. at
578.
The court concluded that, while there “were ways in which the affidavit could have been
strengthened,” the affidavit nevertheless linked the enticement and the possession of child
pornography. Id. at 579. The court also commented that its task was not to “criticize the affidavit
for what it did not contain but to determine, under a commonsense, nontechnical analysis that
gives due deference to the initial judgment of the issuing magistrate, whether what it did contain
established probable cause to search for that which it described.” Id.
1124 The Eight Circuit’s decision in Colbert has been subject to criticism. See Emily Weissler,
Head Versus Heart: Applying Empirical Evidence About the Connection Between Child
r»________ ____ t...

i \St /ll/g/

_..J

u/iu

i—

O;.- L ~L 7„

o')

T

D

1 AQ1

(2013). The author criticizes the Colbert court for using evidence “from court opinions, not
empirical data,” when concluding that “[t]here is an intuitive relationship between acts such as
child molestation or enticement and possession of child pornography.” (Internal quotation marks
omitted.) Id. at 1523. The author argues that, “[although police officers may have extensive
experience with investigating and then helping prosecute child sex offenders, they are not
unbiased,” and, she continues, it is “in their interest to argue in favor of a connection between
the two behaviors because it will help them establish probable cause in scenarios where they
may not otherwise be able to obtain a search warrant.” Id. at 1527. However, the author then
correctly concludes that courts should balance “past child molestation or enticement evidence”

-51-

■f

.«

2020 IL App (2d) 170379
in their “ ‘totality of the circumstances’ probable cause analysis.” Id. That is precisely what the
Colbert court did in affirming the probable-cause determination. I also note that among the cases
relied upon by the Colbert court was Osborne v. Ohio, 495 U.S. 103, 111 (1990) (“evidence
suggests that pedophiles use child pornography to seduce other children into sexual activity”).
1125 The Seventh Circuit recognized the correlation between possession of child pornography
and child molestation in United States v. Clark, 668 F.3d 934 (7th Cir. 2012). For a period
during 2008-09, Clark lived with his brother and sister-in-law until they asked him to leave,
“taking issue with his drinking habits and frequent viewing of pornography on the computer.” Id.
at 935-36. In April 2010, Clark was investigated for breaking into his brother and sister-in-law’s
home and sexually assaulting his four-year-old niece. The investigation, also led to information
that Clark had shown pornography on a computer to a six-year-old while living with his brother.
There was also evidence that Clark had touched a nine-year-old boy’s penis. A detective from
the Madison County Sheriffs Office “swore out an affidavit to procure a warrant to search for
evidence of aggravated criminal sexual assault and child pornography” at Clark’s home and “any
computer equipment located1 at that address; and his laptop computer, which had been seized
from his workplace.” Id. at 937. The detective provided his background and training. The
affidavit also contained “general language about individuals associated with child pornography.”
Id. The search of Clark’s home yielded two computers and other items. A second search warrant
was obtained to authorize the search of the computers and hard drives, which led to
incriminating evidence of child pornography. Id. at 938.
1126 Clark filed a motion for a hearing pursuant to Franks v. Delaware, 438 U.S. 154, 155-56
(1978), to contest the detective’s affidavits. Clark claimed that the detective “improperly
connected his alleged sexual assault on his niece to possession of child pornography through

-52-

2020 JL App (2d) 170379
boilerplate language, lacking any specific basis for suspecting him of possession.” Clark, 668
F.3d at 938. He also claimed that the alleged sexual assault of his niece “provided an insufficient
nexus” to authorize the search of his home. The district court granted the Franks hearing and
found no material omissions. The district court also rejected Clark’s insufficient-nexus argument
and denied Clark’s motion to suppress. Id. at 938-39.
1127 Clark argued on appeal, like defendant in the instant case, that “his alleged sexual assault
of his niece did not support probable cause that he possessed child pornography.” Id. at 939. He
also argued that whatever probable cause existed “justified only a search of his brother s home,
not his.” Id. The circuit court rejected these arguments, stating that,
“[i]n short, the affidavit documents

Clark’s particular, sexual attraction to

children and his willingness to act on his proclivities. The affidavit thus places him at the
heart of the boilerplate language to which he objects: as an individual associated with sex
offenses involving minors, he likely ‘collected] and/or view[ed] images on the
. computer.' " ia. at y4U.
Tj 128 In United States v. Houston, 754 F. Supp. 2d 1059 (D.S.D. 2010), Houston moved to
suppress evidence of child pornography recovered from his computer. The affidavit in support of
the search warrant included statements of Houston’s 12-year-old niece that, when she was 4 or 5
years old, Houston had sexual contact with her on at least two occasions. Houston acknowledged
that contact in a 2009 e-mail The girl also stated that when she was five and six years old, she
saw Houston looking at “ ‘naked boys’ and girls’ butts

on her family’s computer. Id. at 1062.

The court followed Colbert in denying Houston’s motion to suppress, stating, “[i]t would seem
that the intuitive relationship between known child molestation and possessing child

-53-

2020 ILApp (2d) 170379
pornography would be stronger than the inverse, the inverse being the relationship between
possessing child pornography and the possibility of subsequently molesting a child.” Id. at 1064.
f 129 In United States v. Brand, 467 F.3d 179 (2nd Cir. 2006), Brand was convicted of
traveling in interstate commerce for the purposes of engaging in illicit sexual conduct (sex with a
minor) and of using a facility of interstate commerce (a computer) to entice a minor to engage in
illicit sexual activity. Brand was arrested after he engaged in internet chats with FBI agents
posing as young girls. The chats led to undercover telephone conversations with a private citizen
posing as “Julie,” an underage girl. During the phone calls, Brand discussed the sexual acts he
could engage in with Julie. Id. at 185-86. Brand was arrested after he arrived at the destination to
meet with Julie. Brand admitted to the communications with Julie, but he said that he had
changed his mind the night before the scheduled meeting. He said that he had e-mailed Julie to
give her a way out. Id. at 186. Brand also admitted that he received and viewed child
pornography on his computer.
1130 At trial, Brand asserted the entrapment defense. The government argued in'a pretrial
motion that the images of child pornography recovered from Brand’s computer were “admissible
as direct evidence of the crimes charged.” Id. at, 187. Alternatively, the government argued that
the images were admissible under- Federal Rule of Evidence 404(b) to prove “motive, intent,
plan, knowledge, and absence of mistake or accident.” Id.. The trial court ruled that the images
were not admissible as direct evidence but were admissible under Rule 404(b).
f 131 On appeal, Brand argued that the trial court erred in allowing the government to
introduce the images of child pornography. He argued that possession of child pornography is
not sufficiently similar to the charged crimes to make the images admissible under Rule 404(b).
Id. at 195-97. The Second Circuit rejected Brand’s argument, stating that “[t]he ‘similarity or

-54-

2020 IL App (2d) 170379
some connection’ requirement is satisfied in the instant case because a direct connection exists
between child pornography and pedophilia.” Id. at 197. The court cited United States v. Byrd, 31
F.3d 1329, 1336 n.9 (5th Cir. 1994), which also recognized the link between child pornography
and pedophilia. Brand, 467 F.3d at 197. The court agreed with the Byrd court’s conclusion that
the offenses of possessing child pornography and child molestation are linked by an “ ‘abnormal
sexual attraction to children.’ ” Id. at 198 (quoting Byrd, 31 F.3d at 1336 n.9). The court went on
to state that, “[i]n addition to indicating a broader abnormal sexual attraction to children, child
pornography shares a strong nexus with pedophilia.” Id. “ ‘[C]hild pornography may induce
viewers to commit sex crimes on children.’ ” Id. (quoting Byrd, 31 F.3d at 1336 n.9). The court
noted that, “[i]n the Child Pornography Prevention Act of 1996, Congress found that ‘child
pornography is often used by pedophiles and child sexual abusers to stimulate and whet their
own sexual appetites, and as a model for sexual acting out with children.’ ” Id. (quoting Pub. L.
No. 104-208, § 121, 110 Stat. 3009, 3009-26 (1996)). The court stated that a “reasonable juror
____ 1 j______ 1,, jr>_____ i
wuiu vvuviuuv uiui

yvuj

...L
~ LI- vmvtvuig mo

_____ i______ 4.u~ xuovauui

^

IVi UiU VllVVUilWX

»»XWJ

UliV •

Id. at 199. Likewise, in the instant case, a reasonable police officer or issuing judge could have
inferred that defendant might have viewed child pornography to whet his sexual appetite before
abducting M.G. and might have also recorded the sexual act on his cell phone.
f 132 In State v. Ball, 53 A.3d 603 (N.H. 2012), Ball was convicted of possession of child
pornography recovered from his computer pursuant to a search warrant. The affidavit contained
a hearsay statement from the stepdaughter of one of Ball’s friends stating that Ball “joined her
and Johnston on the bed and masturbated while he watched them have sex.” Id. at 605. Ball filed
a motion to suppress, arguing that the warrant affidavit did not set forth any probable cause to
link any child pornography to his computer. The New Hampshire Supreme Court rejected this

-55-

2020IL App (2d) 170379
argument, citing Colbert. Id. at 608. The court noted that there was evidence of child molestation
Mid the fact that Ball watched and masturbated was evidence that he “was a voyeur of child
sexual activity.” Id.
1133 State v. Johnson, 372 S.W.3d 549 (Mo. Ct. App. 2012), is also instructive. There, while
on a trip to watch the state basketball championship in Missouri, Johnson stayed in a motel room
with three young boys. One of the boys woke up to find Johnson rubbing the boy’s penis. Based
on the events in the hotel room, the police obtained a search warrant for Johnson’s home, stating
that the affiant believed that evidence of the offense of possession of child pornography would
be found there. The affidavit stated that Johnson had his laptop computer on the trip. The affiant
also listed his experience. Johnson moved to suppress the evidence seized from his computer.
The trial court denied the motion. On appeal, Johnson argued that there was no “ ‘correlation
between the alleged crime against a child and the possession of child pornography.’ ” The Court
of Appeals of Missouri disagreed, noting that Johnson had “access to his camera and computer”
on the trip and he slept in the same bed as the victim. Also, the victim “was showering and
presumably changing clothes in the hotel room.” Id. at 555. The court found the reasoning in
Colbert “persuasive and relevant to the Tacts of this case.” Id.
If 134 In State v. Grenning, 174 P.3d 706 (Wash. Ct App. 2008), a woman called the police
department saying that she was concerned that Grenning had sexually molested her five-year-old
son. In the affidavit in support of the search warrant, the detective indicated that the child’s
mother found him in the bathroom placing an object in his anus. The victim told his mother that
he was “ ‘trying to get out what [Grenning] had put into [his] butt.’ ” Id. at 710. The victim also
told his mother that Grenning put petroleum jelly on his “pee pee,” as he handed her the jar. The
mother told the police that Grenning had shown her a digital photo he took of the victim while

-56-

2020IL App (2d) 170379
he was unclothed. During Grenning’s police interview, he told the detective that he kept personal
lubricant next to his computer, saying that “ ‘it was more enjoyable to do that while sitting at the
computer.’ ” Id. When asked if he had any pornographic material on his personal computer,
Grenning admitted that he might have some

u t

old stuff ” on it. Id. Grenning was the victim’s '

neighbor and occasionally took care of him. Id. at 525. During the search of Grenning’s
computer, the police located two images of commercial child pornography. A second search
warrant was obtained, expanding the search to include “photographs, photograph albums, and
drawings depicting minors engaged in sexually explicit activity.” Id. at 527. The second warrant
was not executed until more than a year after it was issued. The police recovered 35,000 to
40,000 images of child pornography on Grenning’s computer. Id. Grenning’s motion to suppress
was denied, and he was convicted by a jury of 16 counts of first-degree child rape along with
multiple related charges, including possession of child pornography. Id. at 529.
^135 On appeal, Grenning argued that there was no probable cause for the issuance of the first
rr .t

. i

w axiom, uwwauou uiw amuavn ciiwu viiiy

t t

iiumaiiiiiiiai ucuaviui

. it

wiui gwiwiai diatciuwutd

about pedophile’s -[sic] habits.” The court of appeals disagreed, stating that the “affidavit
specifie[d] facts about Grenning’s molestation” of the victim. Id. at 714. The court concluded
that there was a reasonable inference from the affidavit that “Grenning sexually molested [the
victim], that he masturbated in front, of his computer, and that there were sexually explicit
photographs on Grenning’s computer supporting a child molestation charge.” Id. at 715. The
court held that probable cause existed and that the search was sufficiently particularized. Id.
1136 As noted earlier, the United States Supreme Court and our supreme court have repeatedly
recognized the intrinsic relationship between child molestation and child pornography. Our
legislature has recognized the nexus between child molestation and child pornography. The Code

-57-

2020IL App (2d) 170379
of Criminal Procedure of 1963 provides that, in a case in which a defendant is accused of
“predatory criminal sexual assault of a child” or “child pornography,” evidence of the
commission of one of the offenses is evidence that he Or she committed the other offense. 725
ILCS 5/115-7.3 (West 2012). In People v. Donoho, 204 HI. 2d 159, 176 (2003), our supreme
court held that such evidence is admissible on any matter to which it is relevant, including
propensity. The court noted that several other states have broadened the exceptions to the ban on
other-crimes evidence, some allowing “such evidence to show lustful disposition or tendency
toward sexual predation.” Id. at 175. As our supreme court recognized in Donoho, child
molestation cases rely on child victims’ credibility, which can be attacked in the absence of
substantial corroboration. There “is a compelling public interest in admitting all significant
evidence that will shed some light on the credibility of the charge and any denial by the
defense.” 140 Cong. Rec. SI2990-01 (daily ed. Sept. 20, 1994) (statement of Sen. Dole) (cited
with approval in United States v. Sumner, 119 F.3d 658, 662 (8th Cir. 1997)). It must be
remembered that, for a court to have the opportunity to rule on the admissibility of evidence, the
police must have an opportunity to find it. In this case, the police sought and obtained a search
warrant to look for evidence to corroborate an act of depravity the likes of which the trial court
had never seen before. At the time of the search, the police were not certain who molested M.G.
or what had caused the injury to M.G.’s vagina. Defendant had the option of abducting a threeyear-old, a five-year-old, or a nine-year-old. He selected the victim least likely to be able to
recount the defendant’s attack. Now, to make his case, he relies on the absence of any witness to
say that he possessed or used a cell phone. We should reject this argument. In Riley, the Supreme
Court did not create any special barriers to block law enforcement access to cell phones. They
merely concluded that, because cell phones contain private and often intimate information,

-58-

2020 IL App (2d) 170379
police must “get a warrant.” Riley, 573 U.S. at 403. Nothing is more private or intimate than the
molestation of a child, and a cell phone or a computer is the most likely place to find evidence to
corroborate the victim’s account. In my view, considering the totality of the facts and
circumstances set forth in Hergott’s affidavit, along with the commonsense inferences that arise
from those facts, it was reasonable to conclude that evidence of the offenses listed in the warrant
would be found in defendant’s cell phone, in particular, the photo and video files.
Tf 137 Likewise, there was a sufficient nexus between the offenses under investigation and the
texts and e-mails stored in dciendaxxt’s cell phone. Police officers trained in child molestation
crimes are keenly aware of the devastating harm, both physical and psychological, such crimes
cause to the victims. See People v. Huddleston, 212 Ill. 2d 107, 134-37 (2004). They also know
that “[m]ost cases never come to the attention of law enforcement or treatment professionals.”
Id. at 137. Citing numerous studies, our supreme court stated that “[s]ome experts estimate that
less than one-third of all sexual abuse and assault cases are actually reported and investigated by
child protective authorities.' id. ihe rate ot recidivism among child molesters is mgntemngiy
high and might be as high as 80% for those, who have not undergone treatment. McKune v. Lile,
536 U.S. 24, 33 (2002). In Huddleston, our supreme court stated that the “incidence of child
molestation is a matter of grave concern in this state and others, as is the rate of recidivism
among the offenders.” Huddleston, 212 Ill. 2d at 137.
If 138 Hergott, who was trained in child sexual abuse and computer crimes involving children,
was obviously aware of this “grave concern.” We also presume that Judge Collins was aware of
Huddleston. See People v. Weston, 271 Dl. App. 3d 604, 615 (1995) (circuit court is presumed to
know the law and apply it properly). Trial and reviewing courts may take judicial notice of

-59-

2020IL App (2d) 170379
supreme court as well as appellate court decisions. See People v. Thomas, 137 Ill. 2d 500, 51718(1990).
U 139 People v. Taggart, 233 Ill. App. 3d 530 (1992), is also instructive. On February 6,1987,
Elmhurst police seized photographs and index cards from Taggart’s van during a consent search.
The photographs depicted young nude boys. Taggart explained that the photographs were of
boys who attended his camp and the index cards contained their names and addresses. He was
released without charges, but the police refused to return the photographs and the index cards.
H 140 The police did not believe Taggart’s explanation for the materials. They believed he
might be a child molester. The police first encountered Taggart at 12:19 a.m., and he was parked
in a parking lot with a young boy. Taggart told the police that he was teaching the boy how to
drive for his birthday. The boy provided a different story and denied that Taggart was giving him
driving lessons. He told the police that he and Taggart were going to spend the night at a friend’s
house, but he was unable to provide the friend’s name or address. Id. at 534-37. Although the
boy’s parents verified that he had permission to spend the night with Taggart, the police
continued to investigate. On February 16, 1987, Taggart returned to the Elmhurst Police
Department to retrieve the material seized from his van. When a detective told him that the
police were going to interview some of the boys who attended his camp, Taggart became upset
and claimed that “it would ruin his reputation and put him out of business.” Id. at 544. Taggart
was eventually charged with several counts of aggravated criminal sexual assault involving two
victims.
1141 The trial court granted in part and denied in part Taggart’s motion to suppress the
evidence seized from his van. The trial court ruled that the police had probable cause to seize the
photographs and the index cards dining the consent search of the van. The court noted that the

-60-

2020 IL App (2d) 170379
second search, at the police station, was involuntary and included two books recovered from
under the mattress in Taggart’s van. The books contained pornographic literature about adult
men having sex with young boys.
H 142 On appeal, Taggart argued that, at the time of the seizure, there was no nexus between
the photographs and index cards and the criminal behavior. Id. at 554. This court held that there
was probable cause to seize the materials because “they constituted evidence of crime or were
likely to lead to further evidence.” Id. at 555.1 view the seizure of the index cards in Taggart as
being analogous to searching the text messages and e-mails stored in defendant’s cell phone. As
the facts in Taggart demonstrate, the index cards led the police to other victims. It is a matter of
common knowledge that cell phones and computers are commonly used to produce, store, share,
and view child pornography. It is also a matter of common knowledge that many, if not most,
child molesters view and use child pornography before and during the abuse. The United States
Department of Justice’s “The National Strategy for Child Exploitation Prevention and
Interdiction: A Report to Congress” stated in 2010 that “[a] number of studies indicate a strong
correlation between child pornography offenses and contact sex offenses against children.” U.S.
Dep’t of Justice, The National Strategy for Child Exploitation Prevention and Interdiction: A
Report to Congress 19 (Aug. 2010), https://www.justice.gov/psc/docs/natstrategyreport.pdf
[https://perma.cc/5ERG-FQMC]. “[E]asy access to Internet child pornography has fueled a
market for such material, and has enhanced the link between child pornography and the
facilitation of other crimes against children such as molestation.” Stephen T. Fairchild,
Protecting the Least of These: A New Approach to Child Pornography Pandering Provisions, 57
Duke L. J. 163, 165 (2007). There has been a “historic rise in the distribution of child
pornography, in die number of images being shared online, and in the level of violence

-61-

2020IL App (2d) 170379
associated with child exploitation and sexual abuse crimes. Tragically, the only place we’ve seen
a decrease is in the age of victims.” Attorney General Eric H. Holder, Jr., Speech at the National
Strategy Conference on Combating Child Exploitation (May 19, 2011) (transcript available at
https://www.justice.gov/opa/speech/attomey-general-eric-

holder-speaks-national-strategy-

conference-combating-child [https://perma.cc/7RCV-EEQA]).
1143 There appears to be an assumption on the part of defendant that offenders who possess
child pornography and those who molest children are dichotomous groups. Our own cases, such
as Taggart, should tell us that this assumption has no foundation in reality. In each of these
cases, investigations into acts of child molestation led to the discovery of child pornography.
Discovering child pornography while conducting child-molestation investigations is not rare.
The production of child pornography has grown substantially since the beginning of the digital
age. In 2010, 74% of those convicted in federal courts of producing child pornography were
physically present with their victims or, if not, were aided or abetted by others. U.S. Sentencing
Comm’n,

Federal

Child

Pornography

Offenses

263

(20 12):,

https://www.ussc.gov/sites/ddfault/files/pdf/news/ congressional-testimony-and-reports/sexoffense-topics/201212-federal-child-p0mography-offenses/Full_Report_to_Congress .pdf
[https://perma.cc/L2BE-K64E]. The Justice Department reported to Congress in 2010 that,
during the “Global Symposium for Examining the Relationship Between Online and Offline
Offenses and Preventing the Sexual Exploitation of Children,” experts from around the world
met in 2009 to develop points of consensus. U.S. Dep’t of Justice, supra, at 19. “Among the
most notable points of consensus developed include a finding that there is sufficient evidence of
a relationship between possession of child pornography and the commission of contact offenses
against children to make a cause of acute concern, and that the greater availability of child sexual

-62-

2020IL App (2d) 170379
exploitation materials has stimulated the demand and production of even more extreme, sadistic,
and violent images of children and infants.” Id.
T1144 The majority notes {supra f 23) that the warrant did not “exclude any file locations to be
searched.” I submit that this was due to the nature of the offenses. Even critics of broad scope
search warrants for cell phones in the post-Riley era recognize that
“[i]n some cases, this broad language may actually be acceptable. For instance, if police
are searching for child pornography that could be hidden anywhere, it is arguably the
case, depending on the sophistication of the forensic software, that the officers may need
to review ‘all data’ to find evidence the suspect has purposefully mislabeled or hidden
deep within the phone.” Adam M. Gershowitz, The Post-Riley Search Warrant: Search
Protocols and Particularity in Cell Phone Searches, 69 Vand. L. Rev. 588, 601.
In this case, as defendant conceded at oral argument, several questions raised by the factual
details in the complaint could be answered by the contents of defendant’s cell phone.
1145 In my opinion, given the facts set forth in the complaint, common knowledge regarding
the behavior of child molesters, together with the commonsense inferences, the broad scope
approved by Judge Collins, especially regarding the video files in defendant’s cell phone, was
supported by probable cause.

-63-

2020IL App (2d) 170379

No. 2-17-0379

Cite as:

People v. Reyes, 2020 IL App (2d) 170379

Decision Under Review:

Appeal from the Circuit Court of Lake County, No. 13-CF-2843;
the Hon. Mark L. Levitt, Judge, presiding.

Attorneys
for
Appellant:

James E. Chadd, Patricia Mysza, and Andrew Smith, of State
Appellate Defender’s Office, of Chicago, for appellant.

Attorneys
for
Appellee:

Michael G. Nerheim, State’s Attorney, of Waukegan (Patrick
Delfrno, Edward R. Psenicka, and Steven A. Rodgers, of State’s
Attorneys Appellate Prosecutor’s Office, of counsel), for the
People.

-64-

RECEIVED 5/26/2021

SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
(217)782-2035
FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312)793-1332
TDD: (312)793-6185

May 26, 2021
In re:

People State of Illinois, respondent, v. Jose E. Reyes, petitioner.
Leave to appeal, Appellate Court, Second District.

126756
The Supreme Court today DENIED the Petition for Leave to Appeal in the above
entitled cause.
The mandate of this Court will issue to the Appellate Court on 06/30/2021.

Very truly yours,

Clerk of the Supreme Court

G? &

OFFICE OF THE STATE APPELLATE DEFENDER
SECOND JUDICIAL DISTRICT
One Douglas Ave • Second Floor
Elgin, IL 60120
Telephone: 847/695-8822 • Fax: 847/69S-89S9
www.illinois.gov/osad • E-mail: 2ndDistrict@osad.state.ll.us

July 7, 2021

JAMES E. CHADD
STATE APPELLATE DEFENDER

THOMAS A. LIL1EN
DEPUTY DEFENDER

JOSETTE SKELN1K
ASSISTANT DEPUTY DEFENDER

YASEMIN EKEN
SUPERVISOR

CHRISTOPHER McCOY
SUPERVISOR

Mr. Jose Reyes
Register No. Y21983
Western Illinois Correctional Center
2500 Rt. 99
Mt. Sterling, IL 62353
RE:

People v. Jose Reyes
Lake County No. 13 CF 2843
Appellate Court No. 2-17-0379

JOSETTE SKELNIK

Dear Mr. Reyes:
The appellate court has issued its mandate in your appeal, which serves
as official notice that the court’s judgment in the appeal is now final. A
copy of the mandate is enclosed for your information.
Because the appellate court did not order that any further action be
taken in your case but only affirmed the ruling of the trial court, the fact
that the court issued its mandate should have no impact on your ability
to file a petition for a writ of certiorari with the U.S. Supreme Court.
However, if you do find someone to file a cert petition for you and if the
U.S. Supreme Court takes further action on your case, at some point you
or your counsel should make a request of the appellate court that its
mandate be recalled. Technically, the appellate court’s decision in your
case cannot be considered final until the U.S. Supreme Court takes
action on any cert petition you file, but you can probably wait until that
Court makes a determination as to whether it will consider your case
before seeking to have the appellate court’s mandate recalled.
Sincerely,

JOSETTE SKELNIK
enc.

c.

RECEIVED 7/6/2021

ILLINOIS APPELLATE COURT
SECOND DISTRICT
55 SYMPHONY WAY
ELGIN, IL 60120
<847) 695-3750

MANDATE
Panel:

Honorable Donald C. Hudson
Honorable Joseph E. Birkett
Honorable Kathryn E. Zenoff

THE PEOPLE OF THE STATE
OF ILLINOIS,
Plaintiff-Appellee,
v.
JOSE E. REYES,
Defendant-Appellant.

Appeal No.: 2-17-0379
County/Agency: Lake County
Trial Court/Agency Case No.: 13CF2843

BE IT REMEMBERED, that on the 24th day of November, 2020, the final judgment of
the Illinois Appellate Court, Second District, was entered of record as follows:
Affirmed
In accordance with Illinois Supreme Court Rule 368, this mandate is issued. As clerk of
the Illinois Appellate Court, Second District, and keeper of the records, files, and seal thereof, I
certify that the foregoing is a true statement of the court’s final judgment in the above cause.
Pursuant to Illinois Supreme Court Rule 369, the clerk of the circuit court shall file the mandate
promptly.

Ilf-«
M

IN TESTIMONY WHEREOF, I hereunto set my
hand and affix the seal of the Illinois Appellate
Court, Second District, this 4th day of July, 2021.

Clerk of the Court

